APPENDIX
District court order granting motion to stay execution
pending a competence hearing (Jan. 11, 2021) ................1a
Declaration of Katherine Porterfield, Ph.D. (Jan. 8, 2021)
(filed by applicant) .......................................22a
Declaration of George W. Woods, Jr., M.D. (Jan. 8, 2021)
(filed by applicant) .......................................26a
Declaration of Christina A. Pietz, Ph.D., A.B.P.P.
(Jan. 10, 2021) (filed by respondents) .....................36a
List of materials reviewed by Christina A. Pietz, Ph.D.,
A.B.P.P. (Jan. 10, 2021) (filed by respondents) ............40a
Declaration of Dr. Leslie Wheat (Jan. 10, 2021)
(filed by respondents) ....................................42a
Exhibit F to Applicants’ Opposition to Respondent’s
Petition for Habeas Corpus and Motion for Stay — Rule
1006 summary excerpts of jail calls from Lisa Montgomery
(Jan. 10, 2021) ............................................49a
Declaration of Camille Kempke (Jan. 10, 2021)
(filed by applicant) .......................................65a
Declaration of John M. Shields, Ph.D., ABPP
(Jan. 11, 2021) (filed by applicant) .......................67a
District court order staying the execution of Lisa Marie
Montgomery (Jan. 12, 2021) .................................77a
District court order denying emergency motion for stay
(Jan. 12, 2021) ............................................79a
Court of appeals order vacating district court’s stay of
execution (Jan. 12, 2021) ..................................81a

Case 2:21-cv-00020-JPH-DLP Document 17 Filed 01/11/21 Page 1 of 21 PageID #: 1086

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF INDIANA
TERRE HAUTE DIVISION
LISA MARIE MONTGOMERY,
Petitioner,
v.
WARDEN OF USP TERRE HAUTE, IN, et
al.
Respondents.

)
)
)
)
)
)
)
)
)
)

No. 2:21-cv-00020-JPH-DLP

ORDER GRANTING MOTION TO STAY EXECUTION
PENDING A COMPETENCE HEARING
Petitioner Lisa Montgomery is scheduled to be executed tomorrow,
January 12, 2021, at the United States Penitentiary in Terre Haute, Indiana
(USP – Terre Haute). Ms. Montgomery has filed a petition for writ of habeas
corpus pursuant to 18 U.S.C. § 2241, alleging that she is incompetent to be
executed under Ford v. Wainwright, 477 U.S. 399 (1986), and a motion to stay
execution. Dkt. 1; dkt. 12. For the reasons that follow, the motion to stay is
GRANTED.
I.

INTRODUCTION

In 2007, a jury convicted Ms. Montgomery of kidnapping resulting in death
in violation of 18 U.S.C. § 1201(a)(1). After hearing additional evidence at the
sentencing phase of the trial, the jury found that the government had proven
aggravating factors that warranted imposition of the death penalty, including
that Ms. Montgomery committed the offense in an especially heinous or depraved
manner. Ms. Montgomery raised her mental state as a defense at trial and as a
1
(1a)

Case 2:21-cv-00020-JPH-DLP Document 17 Filed 01/11/21 Page 2 of 21 PageID #: 1087
2a
basis for relief in post-conviction proceedings. The verdict and sentence imposed
were upheld both on appeal and during post-conviction relief proceedings.
In this case, Ms. Montgomery does not further challenge the validity of the
conviction or sentence imposed. Rather, the sole issue presented is whether the
government may lawfully execute Ms. Montgomery in her current mental state.
Ms. Montgomery's counsel contend that executing her would be unconstitutional
because her current mental state makes her unable to understand why the
government seeks to execute her. They ask the Court to stay the execution so
that the Court can hold a hearing and make findings about Ms. Montgomery's
current mental condition based on a fully developed record.
In support of her motion to stay, Ms. Montgomery presents evidence from
three expert witnesses who have each either treated Ms. Montgomery or
interviewed her on multiple occasions. They all discuss Ms. Montgomery's
history of mental illness, the specific diagnoses and corresponding treatments,
and their discussions with Ms. Montgomery's counsel regarding her recent
behavior. They all conclude that Ms. Montgomery's perception of reality is
distorted and that she is currently unable to rationally understand the
government's rationale for her execution. Based on this evidence, the Court finds
that Ms. Montgomery has made a strong showing that she will be able to make
the threshold showing of insanity that requires a hearing.

2

Case 2:21-cv-00020-JPH-DLP Document 17 Filed 01/11/21 Page 3 of 21 PageID #: 1088
3a
II. BACKGROUND
A.

Ms. Montgomery's Crime and Procedural Background

The following is a summary of Ms. Montgomery's crime, adapted from the
Eighth Circuit's factual recitation on direct appeal. United States v. Montgomery,
635 F.3d 1074, 1079–80 (8th Cir. 2011).
Ms. Montgomery met Bobbie Jo Stinnett at a dog show in April 2004.
Ms. Montgomery learned through an online message board dedicated to breeding
rat terriers that Ms. Stinnett was pregnant. Despite undergoing a sterilization
procedure more than a decade earlier, Ms. Montgomery began telling friends and
family in the spring of 2004 that she was pregnant.
On December 15, 2004, Ms. Montgomery, using an alias, contacted
Ms. Stinnett, expressing interest in purchasing a puppy from Ms. Stinnett.
Ms. Montgomery went to Ms. Stinnett's house, where she strangled her and,
using a kitchen knife, cut and removed Ms. Stinnett's baby girl. Ms. Stinnett was
eight months pregnant at the time of her murder.
Ms. Montgomery called her husband, who was unaware of her sterilization,
and told him that she had gone into labor while Christmas shopping and had
given birth at a women's clinic. They took the baby home. The following day, law
enforcement officials went to their home to speak with Ms. Montgomery. She
initially told officers that she had given birth at home, but upon further
questioning at the sheriff's office confessed to killing Ms. Stinnett, removing the
fetus from Ms. Stinnett's womb, and abducting the child. The baby, who was in
good health, was returned to her father.
3

Case 2:21-cv-00020-JPH-DLP Document 17 Filed 01/11/21 Page 4 of 21 PageID #: 1089
4a
Ms. Montgomery was charged in the United States District Court for the
Western District of Missouri with kidnapping resulting in death in violation of
18 U.S.C. § 1201(a)(1). Id. at 1081. Ms. Montgomery asserted the defense of
insanity. Id. at 1082. Defense experts alleged that Ms. Montgomery suffered from
depression, borderline personality disorder, post-traumatic stress disorder
(PTSD), and pseudocyesis, a condition in which a woman falsely believes she is
pregnant, associated with objective physical signs of pregnancy. Id. In October
2007, a jury rejected the insanity defense, convicted Ms. Montgomery of firstdegree murder, and sentenced her to death.
Ms. Montgomery's conviction and sentence were affirmed on direct appeal.
Id. at 1099. The Supreme Court declined review. Montgomery v. United States,
565 U.S. 1263 (2012).
In March 2012, Ms. Montgomery moved to vacate her conviction and
sentence pursuant to 28 U.S.C. § 2255. United States v. Montgomery,
No. 4:12-cv-8001-GAF (W.D. Mo.). On March 3, 2017, the district court denied
relief and denied a certificate of appealability on all claims. Id., dkt. 212. The
Eighth Circuit denied leave to appeal, Montgomery v. United States, No. 17-1716
(8th Cir. Jan. 25, 2019), and the Supreme Court denied certiorari, Montgomery
v. United States, 140 S. Ct. 2820 (May 26, 2020) and Montgomery v. United
States, 141 S. Ct. 199 (Mem) (Aug. 3, 2020) (denying rehearing).
On October 16, 2020, the government set Ms. Montgomery's execution
date for December 8, 2020. United States v. Montgomery, No. 5:05-cr-6002,
dkt. 444 (W.D. Mo.). On November 19, 2020, the District Court for the District
4

Case 2:21-cv-00020-JPH-DLP Document 17 Filed 01/11/21 Page 5 of 21 PageID #: 1090
5a
of Columbia stayed the execution until at least January 1, 2021. Montgomery v.
Barr, No. 20-cv-3261, 2020 WL 6799140, at *11 (D.D.C. Nov. 19, 2020). On
November 23, 2020, the government set a new execution date of January 12,
2021. United States v. Montgomery, No. 5:05-cr-6002, dkt. 445 (W.D. Mo.). In
December, the District Court for the District of Columbia held that the new date
was unlawfully set. Montgomery v. Rosen, 20-cv-3261, 2020 WL 7695994
(D.D.C. Dec. 24, 2020). But the District of Columbia Court of Appeals summarily
reversed that order on January 1, 2021, Montgomery v. Rosen, No. 20-5379
(D.C. Cir. Jan. 1, 2021), so the January 12, 2021 execution date remains in
effect.
Ms. Montgomery's counsel filed the petition in this case days ago,
on Friday January 8, 2021, and filed a corresponding motion to stay the next
day. Pursuant to the briefing schedule entered by the Court on the evening of
January

8,

the

government

filed

a

response

on

January

10

and

Ms. Montgomery's counsel filed a reply today.
B.

Ms. Montgomery's History of Trauma and Mental Illness

While Ms. Montgomery's current mental state is the issue in this case, her
past trauma and diagnoses are relevant because her clinical history informs the
experts' opinions regarding her current mental state.
Ms. Montgomery's childhood trauma was extreme and "consistent with
torture." Dkt. 11-12 (Woods Decl. 2020). Her mother and stepfather were
physically and emotionally abusive. Dkt. 11-5 at 42–43 (Porterfield Decl. 2016).
Her mother found humor in the fact that Ms. Montgomery's first words as a
5

Case 2:21-cv-00020-JPH-DLP Document 17 Filed 01/11/21 Page 6 of 21 PageID #: 1091
6a
toddler were, "[d]on't spank me." Id. Her stepfather sexually assaulted her on a
weekly basis for years. Id. at 43; see also Montgomery, 635 F.3d at 1080. Her
mother's

emotional

abuse

included

sadistic

acts

such

as

taping

Ms. Montgomery's mouth shut with duct tape for speaking and beating the
family dog to death in front of Ms. Montgomery and her siblings. Id. at 43–44.
The prison psychiatrist who treated Ms. Montgomery in the three years
preceding her trial diagnosed her with depression, bipolar disorder, and PTSD.
Dkt. 11-10 at 2, 14–15. At trial, medical experts from both sides agreed that
Ms. Montgomery suffered from depression, borderline personality disorder, and
PTSD. Montgomery, 635 F.3d at 1082. One of Ms. Montgomery's experts,
Dr. Logan, characterized Ms. Montgomery's illness as depressive disorder which
"at times included psychotic features such as hallucinations." Dkt. 11-6 at 80
(Logan Report).
After her trial, Ms. Montgomery was placed at the Federal Medical Center,
Carswell ("FMC Carswell"), a federal prison in Texas for female inmates
with special mental health needs. Dr. Camille Kempke, Ms. Montgomery's
treating psychiatrist at FMC Carswell between 2008 and 2010, witnessed
Ms. Montgomery in "an acute dissociative psychotic state" at least twice.
Dkt. 16-1 at ¶ 2–3. Id.
Two psychological experts hired by Ms. Montgomery's team in support of
her § 2255 proceedings recounted the key role dissociation plays in
Ms. Montgomery's mental functioning and provided declarations in support of
the motion to stay in this action. Dr. Katherine Porterfield, who examined
6

Case 2:21-cv-00020-JPH-DLP Document 17 Filed 01/11/21 Page 7 of 21 PageID #: 1092
7a
Ms. Montgomery in 2016, is a clinical psychologist who has worked with
survivors of torture and trauma for more than two decades. Dkt. 11-12 at 2
(Porterfield Decl. 2020); dkt. 11-5 at 39 (Porterfield Decl. 2016). In her opinion,
Ms. Montgomery suffers from complex post-traumatic stress disorder 1 (CPTSD),
complex partial seizures and brain impairment, depression, and bipolar
disorder. Dkt. 11-12 at 2. Ms. Montgomery's "CPTSD is characterized by severe
dissociative symptoms." Id. As Dr. Porterfield explained, "[d]issociation is a
process of the human nervous system in which neurochemical reactions to
excessive stress lead to alterations in consciousness and perceptions of senses,
the environment, and the self. Dissociation represents a

lowering of

consciousness, sometimes to the point of actual rupture of consciousness and
awareness." Id. at 2–3 (emphasis added).
Dr. Porterfield described the dissociative symptoms

prevalent in

Ms. Montgomery's functioning as follows: (1) confused thought process—
"frequently confused thinking that indicated questions about the reality of
certain events and perceptions in her past"; (2) disengagement—feeling "out of
it" or as if she was in her own world and would forget what day it was or how she
got places; (3) depersonalization—feeling detached from her own body or like she
CPTSD is not a condition that is recognized by the Diagnostic and
Statistical Manual of Mental Disorders. According to Dr. Porterfield, it is a
"diagnostic category proposed for inclusion in the World Health Organization
International Classification of Diseases, 11th version, and arrived at by
consensus among a panel of international trauma experts." Dkt. 11-5 at 48.
Because dissociative symptoms are included in the criteria for PTSD—which
experts on both sides agree Ms. Montgomery has—the Court pays more attention
to the symptoms described by Ms. Montgomery's experts rather than the
diagnostic label of CPTSD or PTSD.
1

7

Case 2:21-cv-00020-JPH-DLP Document 17 Filed 01/11/21 Page 8 of 21 PageID #: 1093
8a
does not belong in her body; (4) derealization—feeling her surroundings are not
familiar in some cases, not real; (5) identity dissociation—feeling like she has
different people inside herself or like there are people inside who are talking to
her; (6) memory disturbance—experiencing blank spells or loss of time; and
(7) emotional constriction—having restricted or limited emotional experience.
Dkt. 11-5 at 48–54.
Dr. George Woods, a physician with a specialty in neuropsychiatric
consultations, conducted clinical evaluations of Ms. Montgomery, which
included interviews and assessments of Ms. Montgomery's neurological status,
in January and February 2013 and July and August 2016. Dkt. 11-6 at 1;
dkt. 11-12 at 34. He observed that Ms. Montgomery has cerebellar 2 dysfunction
and other brain impairments. Dkt. 11-6 at 5. Ms. Montgomery's symptoms
consistent

with

impairment of

the

cerebellum include

"distractibility,

hyperactivity, impulsiveness, disinhibition, anxiety, irritability, ruminative and
obsessive behaviors, dysphoria, and depression, tactile defensiveness and
sensory overload, apathy, and childlike behavior." Id. Dr. Woods also diagnosed
Ms. Montgomery with Bipolar I Disorder, Most Recent Episode Depressed, Severe
with Psychotic Features." Id. at 19. Ms. Montgomery's brain impairments,
exposure

to

extreme trauma, mood

disorder, and psychosis

"interact

synergistically" preventing her from being able to act "rationally and logically."
Id. at 24.
As Dr. Woods explained, "The cerebellum is a region of the brain that plays an
important role in motor control and some cognitive functions such as attention
and language and in regulating fear and pleasure." Id.
2

8

Case 2:21-cv-00020-JPH-DLP Document 17 Filed 01/11/21 Page 9 of 21 PageID #: 1094
9a
According to Dr. Woods, prior to the announcement of her execution date,
the symptoms of Ms. Montgomery's illnesses had largely been controlled at
FMC Carswell, due to three interactive factors: "1) a highly structured and
predictable environment; 2) a stable community wherein she is largely
surrounded by supportive female companions and where her exposure to the
threat of sexual violence is greatly reduced; and 3) careful titration and
monitoring of her regime of antipsychotic medications." Dkt. 11-12 at 35. The
impact of her medication, in particular Risperdal, 3 an antipsychotic medication,
when combined with a supportive community allowed her to function more
successfully but did not resolve her underlying conditions. Id. at 40.
C.

Ms. Montgomery's Current Mental Condition

On October 16, 2020, the warden read Ms. Montgomery her execution
warrant and she was removed from her community and activities and placed in
a suicide cell. Dkt. 11-12 at 40–41. Dr. Woods believes that this disruption to
her routine and the stress of learning of her impending execution have resulted
in a resurgence of her symptoms. Id. at 35, 39.
Ms. Montgomery's attorneys have reported the following symptoms or
behaviors:
•

auditory hallucinations with self-attacking content (hearing her
abusive mother's voice);

Upon her arrival at FMC Carswell, Ms. Montgomery's medication regiment was
modified "from a commonly used combination of mood stabilizer and antidepressant to Risperdal, a medication used for its antipsychotic properties."
Dkt. 11-6 at 18 (Woods Decl. 2013).

3

9

Case 2:21-cv-00020-JPH-DLP Document 17 Filed 01/11/21 Page 10 of 21 PageID #: 1095
10a
•

sleep disturbances and nightmares of past sexual violence that are
so disturbing she is unable to recount them;

•

disruption in bodily functions related to elimination due to her
perception of male guards' observation of her;

•

distorted sense of reality (uncertainty about whether the infant she
kidnapped is really her child; being unsure of what is real without
access to her most trusted friend to confirm reality);

•

religious delusions/hallucinations (believing God spoke with her
through connect-the-dot puzzles, finding messages in a feather,
seeing the moon in a location she found uncanny);

•

gaps in consciousness of time passing due to periods of dissociating
(staring blankly for prolonged periods without awareness, writing
letters and then forgetting doing so);

•

alterations in perception of the external world (feeling outside of
herself as if she is "existing in a house in her mind");

•

inappropriate affect, irritability, and emotional description; and

•

distorted perceptions of reality evincing paranoia (believing a male
psychologist stated to her, "Don't you just want to say 'fuck the
government and kill yourself?'").

Dkt. 11-2 at 3–4; dkt. 16-1. Dr. Porterfield, Dr. Woods, and Dr. Kempke all testify
that these behaviors indicate current psychosis. 11-12 at 3–4 (Dr. Porterfield:
"manifestations of dissociation, disturbed thinking and likely psychosis");
id. at 39 (Dr. Woods: "a reemergence of psychotic symptomology" indicating that
Ms. Montgomery has "lost contact with reality"); Dkt. 16-1 (Dr. Kempke:
observations "indicate that Mrs. Montgomery is psychotic").
Based on reported observations, review of past materials, review of BOP
medical records, and, in Dr. Kempke's case, her past observation of
Ms. Montgomery

experiencing psychosis,

all

three

experts

opine

that

Ms. Montgomery is presently unable to rationally understand the government's
10

Case 2:21-cv-00020-JPH-DLP Document 17 Filed 01/11/21 Page 11 of 21 PageID #: 1096
11a
rationale for her execution as required by Ford. Dkt. 11-12 at 4 (Dr. Porterfield),
41 (Dr. Woods); dkt. 16-1 at ¶ 17 (Dr. Kempke).
Neither Dr. Porterfield nor Dr. Woods has conducted an in-person
evaluation of Ms. Montgomery since 2016 on account of the COVID-19
pandemic. Dkt. 11-12 at 3, 34. Both doctors acknowledge that an evaluation
could be conducted by video. Id. at 4–5, 42. They express concern that their
ability to detect Ms. Montgomery's psychiatric symptoms would be hindered by
a video evaluation, especially since Ms. Montgomery's dissociative symptoms can
be subtle and "often appear as absences, blank responses, silence, difficulty
focusing, fatigue, attentional lapses and distractibility." Id. at 4–5, 42.
Dr. Porterfield

also

expressed

concern

that

"a

remote

evaluation

of

Mrs. Montgomery risks triggering her and leaving her in a compromised state
that this evaluator would be unable to detect and properly address." Id. at 5.
The government disputes Dr. Woods and Dr. Porterfield's conclusion.4
According to Dr. Christina Pietz, a forensic psychologist contracted by the U.S.
Attorney's Office for the Western District of Missouri in anticipation of possible
Ford litigation, "no professional evaluating competency should rely solely on
[counsel-provided] information and historical clinical evaluations in making a
determination

as

to

current

competency"

because

"competency

(or

incompetency) is a present-tense issue." Dkt. 13-3 at ¶ 16. Accordingly,
Dr. Porterfield and Dr. Woods's "opinions as to current competency do not

Dr. Kempke's declaration was filed with Ms. Montgomery's reply brief so the
government did not have the opportunity to respond to it.
4

11

Case 2:21-cv-00020-JPH-DLP Document 17 Filed 01/11/21 Page 12 of 21 PageID #: 1097
12a
appear to have been based on sufficient, current facts or data to conform to any
known professional standards for evaluating competency." Id. at ¶¶ 16–18.
Dr. Pietz also notes that during the COVID-19 pandemic, she has conducted
several mental competency evaluations remotely that she believes comports with
professional standards. Id. at ¶ 9. Dr. Pietz opines that there is no "evidence that
Mrs. Montgomery is suffering from a major mental illness that would impair her
ability to comprehend her legal situation or interact with her attorneys." Id. at
¶ 12. Unlike Ms. Montgomery's experts, Dr. Pietz has never evaluated
Ms. Montgomery in person. Id. at ¶ 8.
The

government

has

also

presented

evidence

contradicting

Ms. Montgomery's allegation of present incompetency, including summary
excerpts of BOP medical records, excerpts of transcripts of jail calls of
Ms. Montgomery talking with family members and friends, and declarations by
Dr. Pietz and Dr. Leslie Wheat, a BOP psychologist who serves as the Regional
Psychology Services Administrator for the South Central Region. Dkts. 13-3;
13-4; 13-5; 13-6.
The government argues that the BOP medical records reflect a
comprehension of her legal situation and impending execution. Dkt. 13-4 at ¶ 10
(summarizing interactions with BOP clinicians). Those records indicate that
Ms. Montgomery reported feeling "great," positive, and hopeful about the future
after her first execution date was vacated; reported sleeping poorly due to
concern about the execution; and described not being forthcoming with BOP
psychologists about her feelings on advice of her attorneys. Id.
12

Case 2:21-cv-00020-JPH-DLP Document 17 Filed 01/11/21 Page 13 of 21 PageID #: 1098
13a
In phone calls with relatives between August 6, 2020, and January 2,
2021, Ms. Montgomery discussed issues related to her crime and upcoming
execution, including recalling the anniversary of her crime, discussing the
possibility of her upcoming execution including plans for cremation, the delay of
her execution due to her attorneys contracting COVID-19, and discussing her
petition for clemency and other ongoing legal challenges. Dkt. 13-6.
III.
A.

APPLICABLE LAW

Standard for Stay of Execution

In deciding whether to stay an execution, the Court must consider:
"(1) whether the stay applicant has made a strong showing that [s]he is likely to
succeed on the merits; (2) whether the applicant will be irreparably injured
absent a stay; (3) whether issuance of the stay will substantially injure the other
parties interested in the proceeding; and (4) where the public interest lies."
Nken v. Holder, 556 U.S. 418, 434 (2009). "The first two factors . . . are the most
critical." Id. Before entering a stay, the Court must also consider "the extent to
which the inmate has delayed unnecessarily in bringing the claim." Nelson v.
Campbell, 541 U.S. 637, 649-50 (2004).
B.

Standards for Claim of Incompetence

Under Ford v. Wainwright, 477 U.S. 399 (1986), and its progeny, "[t]he
Eighth Amendment . . . prohibits the execution of a prisoner whose mental illness
prevents [her] from 'rationally understanding' why the State seeks to impose that
punishment." Madison v. Alabama, 139 S. Ct. 718, 722 (2019) (quoting Panetti
v. Quarterman, 551 U.S. 930, 959 (2007)). "A prisoner's awareness of the State's
13

Case 2:21-cv-00020-JPH-DLP Document 17 Filed 01/11/21 Page 14 of 21 PageID #: 1099
14a
rationale for an execution is not the same as a rational understanding of it. Ford
does not foreclose inquiry into the latter." Panetti, 551 U.S. at 959. While doctors
and other experts can help a judge understand the prisoner's cognitive defects,
"the sole inquiry for the court remains whether the prisoner can rationally
understand the reasons for his death sentence." Madison, 139 S. Ct. at 728.
Under Ford, Ms. Montgomery's burden is to make a substantial showing
that her "mental illness prevents [her] from 'rational[ly] understanding' why the
[government] seeks to [execute her]." Madison, 139 S. Ct. at 722 (quoting Panetti,
551 U.S. at 959). The question is whether her "concept of reality is so impaired
that [she] cannot grasp the execution's meaning and purpose or the link between
[her] crime and its punishment." Id. (quotation marks and citation omitted). The
"standard focuses on whether a mental disorder has had a particular effect: an
inability to rationally understand why the [government] is seeking execution."
Madison, 139 S. Ct. at 728 (emphasis original). "As Ford and Panetti recognize,
a delusional disorder can be of such severity—can 'so impair the prisoner's
concept of reality'—that someone in its thrall will be unable 'to come to grips
with' the punishment's meaning." Madison, 139 S. Ct. at 729 (quoting Panetti,
551 U.S. at 958). If Ms. Montgomery makes a "'substantial threshold showing of
insanity' the protection afforded by procedural due process includes a 'fair
hearing' in accord with fundamental fairness." Panetti, 551 U.S. at 949 (quoting
Ford, 477 U.S. at 426, 424).

14

Case 2:21-cv-00020-JPH-DLP Document 17 Filed 01/11/21 Page 15 of 21 PageID #: 1100
15a
IV.

DISCUSSION

A. Likelihood of Success on the Merits
Counsel argue that executing Ms. Montgomery without first providing the
"fair hearing" required by Ford would violate her right to due process under the
Fifth Amendment. To succeed on the Fifth Amendment claim, counsel must
make a "'substantial threshold showing of insanity.'" Panetti, 551 U.S. at 950
(quoting Ford, 477 U.S. at 426). Counsel have made the required substantial
threshold showing and, in doing so, demonstrated a strong likelihood of success
on the Fifth Amendment claim.
Three experts—including Dr. Kempke, a retired BOP psychiatrist who
treated Ms. Montgomery while she was in custody—have concluded that
Ms. Montgomery's current mental state is so divorced from reality that she
cannot rationally understand the government's rationale for her execution.
Dkt. 16-1, at p. 2, ¶ 17 (Dr. Kempke); dkt. 11-2 at 4, ¶ 6 (Dr. Porterfield); id. at
41 (Dr. Woods).
The Court finds the experts' declarations reliable and sufficient to make
the required threshold showing. The experts each relied on a combination of the
relevant scientific literature, past direct observations of Ms. Montgomery, and
descriptions of Ms. Montgomery's current behavior relayed by counsel. While the
Panetti standard concerns the consequence, not the diagnoses of mental illness,
Madison, 139 S. Ct. at 728, Ms. Montgomery's past conduct and diagnoses are
relevant to assessing her current condition. See Ferguson v. Sec'y, Fla. Dep't of
Corr., 716 F.3d 1315, 1320 (11th Cir. 2013) ("[T]he history of [the petitioner's]
15

Case 2:21-cv-00020-JPH-DLP Document 17 Filed 01/11/21 Page 16 of 21 PageID #: 1101
16a
mental condition, the opinions of experts regarding it, and judicial decisions
about it over the years are all relevant to a discussion of his present mental
condition."). As discussed above, Dr. Woods has found that Ms. Montgomery has
physical brain impairments, dkt. 11-6 at 5, and has diagnosed her with
"Bipolar I Disorder, Most Recent Episode Depressed, Severe with Psychotic
Features." Id. at 19. Dr. Porterfield found that Ms. Montgomery suffers from
complex post-traumatic stress disorder (CPTSD), complex partial seizures and
brain impairment, depression, and bipolar disorder. Dkt. 11-12 at 2. The prison
psychiatrist who treated Ms. Montgomery in the three years preceding her trial
diagnosed her with depression, bipolar disorder, and PTSD. Dkt. 11-10 at 2,
14−15. Ms. Montgomery's current behaviors are considered in this context.
Those current behaviors include, among other things, Ms. Montgomery
•

experiencing auditory hallucinations;

•

being unsure what is real;

•

believing that a male psychologist stated to her, "Don't you just want
to say 'fuck the government and kill yourself?'";

•

expressing uncertainty about whether the infant she kidnapped is
really her child;

•

stating that God spoke with her through connect-the-dot puzzles;

•

experiencing lapses of time, as evidenced by her staring blankly for
prolonged periods; and

•

reporting experiences of "feeling outside herself—as if watching from
a distance."

See dkt. 11-2 at 3–4; dkt. 16-1.

16

Case 2:21-cv-00020-JPH-DLP Document 17 Filed 01/11/21 Page 17 of 21 PageID #: 1102
17a
While treating Ms. Montgomery in the past, Dr. Kempke personally
observed her "in an acute dissociative psychotic state at least two times."
Dkt. 16-1 at 1, ¶ 7. Dr. Kempke explains that many of Ms. Montgomery's
behaviors indicate that she is again experiencing psychotic dissociation. Id. at 2,
¶¶ 14−17. Given Dr. Kempke's past direct observations of Ms. Montgomery
experiencing

a

dissociative

psychotic

state,

her

opinions

about

Ms. Montgomery's current competencies are especially probative.
Dr. Kempke's conclusions are supported by those of Dr. Woods and
Dr. Porterfield, both of whom have diagnosed Ms. Montgomery in the past.
Dr. Woods opines that Ms. Montgomery's "grasp of reality has always been
tenuous" and that her current symptoms indicate that she "is further
disconnected from reality." Dkt. 11-12 at 41. Likewise, Dr. Porterfield opines that
based on Ms. Montgomery's current behavior, in the context of past interactions,
Ms. Montgomery's "concept of reality is [] impaired." Id. at 4, ¶ 6.
The

respondent argues that none

of

Ms. Montgomery's experts'

conclusions are reliable because they have not interviewed Ms. Montgomery in
her current condition. But experts may rely on the statements of laypeople in
forming opinions about Ms. Montgomery's mental state. See, e.g., United States
v. Brownlee, 744 F.3d 479, 481−82 (7th Cir. 2014) ("[A]n expert witness is
permitted to rely on any evidence, whether it would be admissible or inadmissible
if offered by a lay witness, that experts in the witness's area of expertise
customarily rely on."). Indeed, each expert acknowledged that a direct interview
would be useful for diagnosis, but that the descriptions of Ms. Montgomery's
17

Case 2:21-cv-00020-JPH-DLP Document 17 Filed 01/11/21 Page 18 of 21 PageID #: 1103
18a
current behavior, when coupled with their past treatment or evaluations, was
sufficient to allow them to reach an opinion to a reasonable degree of scientific
(or medical) certainty. Dkt. 11-12 at 4, ¶ 6; id. at 41; dkt. 16-1 at 2, ¶ 17.
The Court finds these experts' declarations satisfy the required preliminary
showing that Ms. Montgomery's current mental state would bar her execution.
Ford did not set a precise standard for competency, Panetti, 551 U.S. at 957, and
the concept of "rational understanding" is hard to define. Id. at 959. While there
similarly are no set criteria describing what constitutes a "substantial threshold
showing," the record before

the Court

contains ample evidence that

Ms. Montgomery's current mental state is so divorced from reality that she
cannot rationally understand the government's rationale for her execution.
Dkt. 16-1, at 2, ¶ 17 (Dr. Kempke); dkt. 11-2 at 4, ¶ 6 (Dr. Porterfield); id. at 41
(Dr. Woods). See Panetti, 551 U.S. at 950 (finding that petitioner had made
substantial threshold showing); see id. at 970 (Thomas, J., dissenting) (noting
that the majority found the "threshold showing" satisfied with one unsworn, onepage letter from a doctor and another one-page declaration from a law professor,
both relying on the petitioner's past medical history).
The government presents relevant contrary evidence, including transcripts
of Ms. Montgomery's recent phone conversations and reports from BOP staff
observations. While this evidence certainly shows that Ms. Montgomery
understands that she is supposed to be executed soon, it does not demonstrate
that she rationally understands the "meaning and purpose of the punishment."
Madison, 139 S. Ct. at 727. Moreover, "[a]s Ford and Panetti recognize, a
18

Case 2:21-cv-00020-JPH-DLP Document 17 Filed 01/11/21 Page 19 of 21 PageID #: 1104
19a
delusional disorder can be of such severity—can 'so impair the prisoner's concept
of reality'—that someone in its thrall will be unable 'to come to grips with' the
punishment's meaning." Madison, 139 S. Ct. at 729.
B. Irreparable Injury
Ms. Montgomery would be irreparably injured if the government executes
her when she is not competent to be executed.
C. Balancing Harms, Public Interest, and Equitable Concerns
"'Both the [government] and the victims of crime have an important
interest in the timely enforcement of a sentence.'" Bucklew v. Precythe, 139 S.
Ct. 1112, 1133 (2019) (quoting Hill v. McDonough, 547 U.S. 573, 584 (2006)).
It is also in the public interest to ensure that the government does not execute a
prisoner who due to her mental condition "cannot appreciate the meaning of a
community's judgment." Madison, 139 S. Ct. at 727. "[I]f the Constitution
renders the fact or timing of his execution contingent upon establishment of a
further fact, then that fact must be determined with the high regard for truth
that befits a decision affecting the life or death of a human being." Panetti, 551
U.S. at 948–49. A hearing has not been held to determine Ms. Montgomery's
competence. Because Ms. Montgomery has made "a substantial threshold
showing of insanity," she is entitled to a fair hearing. Ford, 477 U.S. at 426.
The government's primary equitable argument is that counsel should have
filed this claim and motion for stay sooner. Indeed, "last-minute filings that are
frivolous and designed to delay executions can be dismissed in the regular
course." Panetti, 551 U.S. at 946. But counsel's filing is not frivolous. As
19

Case 2:21-cv-00020-JPH-DLP Document 17 Filed 01/11/21 Page 20 of 21 PageID #: 1105
20a
discussed elsewhere in this order, Ms. Montgomery has been diagnosed with
physical brain impairments and multiple mental illnesses, and three experts are
of the opinion that, based on conduct and symptoms reported to them by
counsel, Ms. Montgomery's perception of reality is currently distorted and
impaired.
Additionally, the timing is not unreasonable given Ms. Montgomery's
deterioration,

this

case's

procedural

history

and

what's

at

stake.

Ms. Montgomery's condition began to devolve when the government first
announced her execution date. But within a month, the execution was stayed.
Counsel believed, and the District of Columbia District Court agreed, that the
January 12 execution date was unlawful. Not until January 1, 2021, was the
January 12 execution date relatively set in stone, and counsel filed this petition
one week later. It is also worth noting that a brief stay of execution was initially
granted to provide counsel time to recover from debilitating COVID-19 symptoms
that included extreme fatigue, impaired thinking and judgment, and inability to
concentrate. See Montgomery v. Barr, No. 20-3261 (D.D.C. Nov. 19, 2020), 2020
WL 6799140 at *7.
While the Court is mindful about the possibility of strategic litigation,
neither that possibility or the delay outweigh the need for the stay when counsel
has made a threshold showing that Ms. Montgomery is presently incompetent to
be executed. Madison, 139 S. Ct. at 727 ("Similarly, Ford and Panetti stated that
it 'offends humanity' to execute a person so wracked by mental illness that he
cannot comprehend the 'meaning and purpose of the punishment.'").
20

Case 2:21-cv-00020-JPH-DLP Document 17 Filed 01/11/21 Page 21 of 21 PageID #: 1106
21a
V.

CONCLUSION

Ms. Montgomery's motion to stay execution, dkt. [12], is GRANTED to
allow the Court to conduct a hearing to determine Ms. Montgomery's competence
to be executed. The Court will set a time and date for the hearing in a separate
order in due course.
SO ORDERED.
Date: 1/11/2021

Distribution:
Brian Patrick Casey
U.S. ATTORNEY'S OFFICE
brian.casey@usdoj.gov
Amy D. Harwell
FEDERAL PUBLIC DEFENDER TNM
amy_harwell@fd.org
Kelley J. Henry
FEDERAL PUBLIC DEFENDER TNM
kelley_henry@fd.org
Lisa Nouri
lisanouri_atty@hotmail.com

21

Case 2:21-cv-00020-JPH-DLP Document 11-12 Filed 01/09/21 Page 2 of 66 PageID #: 862
22a
DECLARATION OF KATHERINE PORTERFIELD, Ph.D.
I, KATHERINE PORTERFIELD, declare as follows:
1. I am a clinical psychologist, licensed to practice in the State of New York. I
received my Ph.D. in clinical psychology from the University of Michigan in
1998. My pre-doctoral and postdoctoral training included extensive training
in the evaluation and diagnosis of mental disorders. My curriculum vitae
which fairly and accurately summarizes my education and experience is
attached to this Declaration.
2. Counsel for Lisa Montgomery has asked me to address her current
psychological condition, specifically her rational understanding of her
planned execution. My opinion, which is based on information obtained from
Mrs. Montgomery’s attorneys about their daily communication with her, as
well as my previous evaluation of Mrs. Montgomery over four days and
eighteen hours of face to face interviewing in 2016, and extensive review of
Mrs. Montgomery’s biopsychosocial history through records and witness
interviews, is that as a result of her severe mental illness Mrs. Montgomery
is currently unable to rationally understand the basis for her execution. My
opinion is also based on my knowledge and experience as a psychologist who
has worked with survivors of torture and other trauma for more than two
decades, and the United States Supreme Court opinion in Madison v.
Alabama, 139 S.Ct. 718 (2019).
3. I first evaluated Mrs. Montgomery in 2016. My evaluation and conclusions
with respect to Mrs. Montgomery’s mental illness are detailed in my April 22,
2016 report and my October 10, 2016 supplemental report. I have also
submitted two declarations with respect to my concerns that Mrs.
Montgomery’s conditions of incarceration were likely to result in a
deterioration of her mental health and functioning. Those declarations are
dated November 9, 2020 and November 23, 2020. I reaffirm the truthfulness
and accuracy of those previous declarations and incorporate them into this
declaration by reference.
4. Mrs. Montgomery suffers from complex post-traumatic stress disorder
(CPTSD), complex partial seizures and brain impairment, depression, and
bipolar disorder. Her CPTSD is characterized by severe dissociative
symptoms. In my report dated April 22, 2016, I stated, regarding Mrs.
Montgomery’s dissociative symptoms:
“The most pronounced manifestation of Lisa Montgomery’s
extensive trauma history is her dissociative symptomatology and
manner of managing stress. Dissociation is a process of the
human nervous system in which neurochemical reactions to
excessive stress lead to alterations in consciousness and

F-002

Case 2:21-cv-00020-JPH-DLP Document 11-12 Filed 01/09/21 Page 3 of 66 PageID #: 863
23a
perceptions of senses, the environment, and the self. Dissociation
represents a lowering of consciousness, sometimes to the point of
actual rupture of consciousness and awareness (Lanius, Paulsen
& Corrigan, 2014). Clinical models of dissociation demonstrate
how humans, like animals, when under severe threat, will
sometimes experience the release of neurochemicals that are
anesthetic in nature and that therefore lower the organism’s
experience of pain and fear. When humans experience this
peritraumatic (“during the trauma”) dissociation however, they
are often left with residual difficulties after the trauma, such as
amnesia, fragmentation of memory, and other disturbances. If
the individual suffers multiple traumatic events that lead to
frequent and lengthy periods of peritraumatic dissociation, the
after effects will likely be more pervasive and more severe. These
can include altered states of consciousness that linger after the
traumatic events, such as time distortions, cognitive confusion,
bodily symptoms (depersonalization and derealization) and
emotional numbing. (Frewen and Lanius, 2014). Dissociative
symptoms can reach the level of psychosis, as when an individual
suffers hallucinatory phenomena, such as voices talking at him or
her in an attacking manner.”
Specifically, Mrs. Montgomery’s dissociative symptoms are characterized by:
confused thought processes, disengagement, depersonalization, derealization,
identity confusion, memory disturbance, and emotional constriction. The
symptoms that Mrs. Montgomery has demonstrated in the past are severe
and they can be highly impairing for her. For example, her depersonalization
can lead her to feel that she is not present in her body, an experience that is
highly destabilizing for people who suffer it. Her thought processes can
become confused, leading her to be unsure about time and the basic
circumstances in which she finds herself. Derealization can lead her to feel
that her environment is unreal or distorted in some way. Her emotional
constriction can lead her to become detached from her circumstances, unable
to gauge or express what she is feeling. Disengagement can lead her to
disconnect from people and no longer communicate her actual feelings,
thoughts or plans. In the past, these symptoms have led Mrs. Montgomery to
become highly disorganized and, at times, suicidal.
5. Her attorneys have been in regular telephone contact with Mrs.
Montgomery, but have been unable to visit with her in person since
November 2, 2020. I have been unable to evaluate Mrs. Montgomery in
person because of the travel restrictions caused by the current global
pandemic. Mrs. Montgomery’s attorneys have regularly reported to me after
their contacts with her. They have described a deteriorating mental condition

F-003

Case 2:21-cv-00020-JPH-DLP Document 11-12 Filed 01/09/21 Page 4 of 66 PageID #: 864
24a
characterized by symptoms consistent with her diagnoses. Specifically, they
have described thoughts and behaviors that are manifestations of
dissociation, disturbed thinking and likely psychosis. Among the reported
symptoms are: auditory hallucinations with self-attacking content (hearing
her abusive mother’s voice), sleep disturbances and nightmares of past sexual
violence, disruption in bodily functions related to elimination due to her
perception of male observation, distorted sense of reality (uncertainty about
whether the infant she kidnapped is really her child), religious delusions
(believing that God is speaking to her through connect-the-dot puzzles), gaps
in consciousness of time passing due to periods of being in a dissociative
state, derealization (alterations in perception of the external world),
inappropriate affect, irritability, and emotional constriction. Recently, Mrs.
Montgomery described an interaction with a male psychologist who is not on
her regular service in which she says he stated to her, “Don’t you just want to
say ‘fuck the government and kill yourself?’” I find it highly unlikely that a
trained clinician would make such a statement to any patient, let alone a
patient at acute risk for suicide and with a history of suicide attempts. Mrs.
Montgomery repeatedly focused on this statement being made to her, to a
degree that suggests distorted perceptions of what the staff members may be
intending and that is indicative of incipient paranoia. All of her symptoms
are indicators that Mrs. Montgomery’s psychological functioning is highly
impaired.
6. It is my professional opinion that I would be able to conduct a more
thorough evaluation of Mrs. Montgomery during an in-person meeting but I
am unable to travel because of the pandemic. Nevertheless, I am confident to
a reasonable degree of psychological certainty that Mrs. Montgomery suffers
mental diseases and defects and cannot now rationally form an
understanding of the government’s rationale for her execution. Her concept of
reality is so impaired that she cannot grasp the execution’s meaning and
purpose or the link between crime and its punishment.
7. Were I able to travel I could conduct a more thorough in-person evaluation.
An in-person evaluation would be conducted in a way that minimizes the
likelihood of doing harm to Mrs. Montgomery or worsening her mental state.
Because her dissociative symptoms are easily triggered, an examination of
her functioning must proceed carefully so that, if dissociation occurs, Mrs.
Montgomery can be carefully monitored and assisted in regaining an
integrated, organized mental state. This requires rapport with Mrs.
Montgomery, basic trust, and the clinical ability to recognize and address
dissociative symptoms in the moment. If the evaluation were taking place on
the phone or by video call, this kind of assessment and intervention would
not be possible. This is because dissociative symptoms are difficult to detect
when a patient is not physically present with a clinician and these symptoms

F-004

Case 2:21-cv-00020-JPH-DLP Document 11-12 Filed 01/09/21 Page 5 of 66 PageID #: 865
25a
are difficult to address when not in the room with a patient. Specifically,
dissociative symptoms often appear as absences, blank responses, silence,
difficulty focusing, fatigue, attentional lapses and distractibility. These
symptoms are very difficult to detect without being present with a patient
and able to assess eye contact, verbal and physical communication and
reactions. Thus, a remote evaluation of Mrs. Montgomery risks triggering her
and leaving her in a compromised state that this evaluator would be unable
to detect and properly address.
I declare under penalty of perjury and the laws of the United States that the
foregoing is true and correct to the best of my information and belief.
Dated this 8th Day of January, 2021.

______________________

F-005

Case 2:21-cv-00020-JPH-DLP Document 11-12 Filed 01/09/21 Page 33 of 66 PageID #: 893
26a

DECLARATION OF GEORGE W. WOODS, JR., M.D.
I, George W. Woods, Jr., M.D., hereby declare the following:
Qualifications
I am a physician licensed to practice in California, Louisiana, Michigan, Missouri,
New York, Tennessee, Washington State, and Wyoming, with offices in San Francisco
and Oakland, California. My clinical subspecialties are neuropsychiatry and
Consultation Liaison Psychiatry, which is the study of psychiatric manifestations of
medical diseases, and the assessment of neurodevelopmental disorders. In my clinical
practice, I assess and treat persons with a variety of medical problems with
psychiatric manifestations, including people with neurological disorders that manifest
with psychiatric symptoms. I also have a civil and forensic practice.
I taught Clinical Aspects of Forensic Psychiatry and Introduction to Geriatric
Psychiatry at Morehouse School of Medicine, Atlanta, Georgia from 2002 through
2016. I have been a lecturer at Berkeley Law – University of California, teaching
Mental Health and the Law for 7 years.
I was appointed Medical Expert to the San Francisco District Attorney Post
Conviction Unit Innocence Commission in 2020. I was President of the International
Academy of Law and Mental Health from 2015 through 2017. I was recently reelected
for a second 2-year term, starting in 2021.After completing my first 2-year term, I was
asked to remain as Secretary General to help complete the association with the
Institute of Ethics, Medicine, and Public Health at the Sorbonne, Paris, France.
I am a Life Fellow of the American Psychiatric Association, a member the American
Psychological Association, the International Neuropsychological Society, and the
American Association on Intellectual and Developmental Disabilities. I was the
recipient of the 2018 Distinguished Alumnus for the University of Utah Medical
Center, the first psychiatrist so honored. I also received the Historical Prize from the
University of Milan in 2019.
I have written about the forensic assessment of neurodevelopmental disorders, race
and cognition, cognitive impairment in the elderly, fetal alcohol spectrum disorder,
trauma, and financial deception in elderly populations, among other topics. I have
been qualified and have testified as an expert in numerous civil and criminal cases
in state and federal courts. A copy of my curriculum vitae is attached hereto.
Referral Questions
In 2013 at the request of counsel for Lisa Montgomery, I conducted a
neuropsychiatric evaluation of Mrs. Montgomery, taking into account the complex
1
F-033

Case 2:21-cv-00020-JPH-DLP Document 11-12 Filed 01/09/21 Page 34 of 66 PageID #: 894
27a
historical, developmental, psycho-social, and psychiatric data accumulated during
the course of Mrs. Montgomery’s case. At that time, I addressed questions regarding
Mrs. Montgomery’s capacity to appreciate the wrongfulness of her conduct or to
conform her conduct to the requirements of law at the time of her crime, discussed
how Mrs. Montgomery’s neurobehavioral history was an important component of
her social history, and discussed how Mrs. Montgomery’s impairments and
medications affect her ability to rationally assist her counsel prior to and during the
trial as well as how her impairments and medications informed her demeanor at
trial. My findings with regard to these referral questions are contained in my 2013
declaration and 2016 addendum.
Counsel have asked that I, now, respond to the following questions based on my
clinical observations of Mrs. Montgomery and my knowledge of her life history,
brain damage, and reported current level of functioning:
•

Based on your knowledge of Mrs. Montgomery’s history as well as the
reports of counsel regarding her current symptomology, is Mrs.
Montgomery able to form a rational understanding of the State’s
rationale for her execution as required by Ford v. Wainwright, 477
U.S. 399 (1986)?

•

How would an in-person evaluation of Mrs. Montgomery further
inform or refine your opinions?
Interviews and Summary of Materials Reviewed

I previously met with Mrs. Montgomery in a private interview room at the BOP
Carswell Medical Facility in Fort Worth on January 17, 2013, February 8, 2013,
July 19, 2016 and August 31, 2016. My initial evaluation included clinical
interviews, an assessment of her neurological status, and review of her
biopsychosocial history and case related materials. I have not conducted additional
clinical evaluation because of the strictures of the current COVID pandemic: I am
73 years of age and am considered at high risk of COVID-19 infection and at a
much-heightened risk of complications from infection. I also have several underlying
conditions in addition to my age which require me to be extra vigilant including that
I am currently in treatment for prostate cancer which necessitates on-going
immunosuppressant therapy. My doctor has ordered me not to travel due to my
health concerns (regardless of the pandemic) for at least 4 months, depending upon
potential effects of hormonal, antiandrogen, and immunotherapy.
In answering the current referral questions, I, again, reviewed extensive
documents relating to Mrs. Montgomery’s childhood, adolescence, and adulthood.
These documents included diagnostic data in medical and psychiatric records, the
biopsychosocial history, psychiatric, psychological, and neuropsychological
assessments—including the up-to-date BOP mental health records, her medication
2
F-034

Case 2:21-cv-00020-JPH-DLP Document 11-12 Filed 01/09/21 Page 35 of 66 PageID #: 895
28a
regimen, and other relevant materials. I also considered the reports of Mrs.
Montgomery’s counsel as to her current functioning. These are the kinds of sources
of information relied upon by members of my profession in reaching an accurate
assessment and providing answers to referral questions.
Clinical Formulation
Mrs. Montgomery has significant neurologic deficits, including but not limited to
cerebellar dysfunction, an important control mechanism of executive function, her
ability to effectively weigh, deliberate, understand context, and respond to social
cues. She also has mild atrophic changes in her brain and symptoms of motor
dysfunction. These conditions do not ameliorate, though they may worsen,
especially in new, novel, and stressful circumstances. Mrs. Montgomery also
suffers from a severe affective mood disorder with psychosis. She demonstrates
pervasive and enduring consequences of surviving intentional trauma so severe
that it meets the World Health Organization criteria for torture, as well as meeting
criteria for complex posttraumatic stress disorder and disorders of extreme stress
(Briere & Spinazzola, 2005; van der Kolk, Roth, Pelcovitz, Sunday, & Spinazzola,
2005). These disorders interact synergistically and account for Mrs. Montgomery’s
vulnerable mood lability; history of loss of contact with reality; impaired working
memory; judgment and insight; affective dysregulaton; defective goal formation;
and confusion.
Over time, Mrs. Montgomery’s psychotic symptomology has been held at bay due to
three interactive factors present in the conditions of her confinement within the
BOP Federal Medical Center at Carswell: 1) a highly structured and predictable
environment; 2) a stable community wherein she is largely surrounded by
supportive female companions and where her exposure to the threat of sexual
violence is greatly reduced; and 3) careful titration and monitoring of her regime of
antipsychotic medications. Despite the management of her symptoms, her
underlying conditions persist and—particularly as her environment changes—
appear to have overcome the therapeutic effect of antipsychotic medication in the
face of extreme stress. Psychiatric medication is not curative. Rather, psychiatric
medication is one arrow in the quiver of possible abatement of symptoms. A
person’s historical vulnerability as well as the effectiveness of their environmental
support are paramount in allowing medications to exert any modicum of control.
•

Brain Impairments compromise Mrs. Montgomery’s perception of reality.

Mrs. Montgomery’s brain is compromised structurally and functionally. My
clinical observations are supported by the reports of Drs. Gur and Nadkarni, as
well as the neuropsychological data produced by Dr. Fucetola, which I have
reviewed. Mrs. Montgomery demonstrates behaviors and symptoms associated
with functional impairment of the cerebellum. 1 Schmahman et al have
1

Impaired cerebellar function is well recognized because of exposure to
3
F-035

Case 2:21-cv-00020-JPH-DLP Document 11-12 Filed 01/09/21 Page 36 of 66 PageID #: 896
29a
documented the role of the cerebellum in controlling executive skills. Although
initially considered a part of the brain controlling balance, with purely motor
functions, the last 22 years have demonstrated the cerebellum to be a major
cognitive mechanism for the control of nuanced executive functioning skills,
particularly decision making, affective control, understanding context, and
effective deliberation. Mrs. Montgomery’s cerebellum has been found to be
quantitatively and qualitatively impaired, providing significant vulnerability to
her cognitive capacity.
Imaging of her brain reflects an overall loss of brain volume as well as a
particular loss of tissue around the midline of her brain. 2 See Gur Report. Other
structures that appear diminished are the basal forebrain, particularly the frontal
right side of the frontal/parietal lobes and the superior parietal lobe. PET scans
show her brain is hypermetabolic, particularly in the amygdala. 3 Id.
Mrs. Montgomery’s brain impairment is a condition that cannot improve. Though
additional trauma, injury, or aging may further compromise its functioning, the
brain does not “repair” or heal from such losses. The portions of Mrs.
Montgomery’s brain that are impaired are early brain structures, which are fully
developed early in a child’s life. This is particularly seen in the hypermetabolic
functioning of her amygdala—the center of the body’s fear and stress responses
alcohol. By all accounts, Mrs. Montgomery’s mother drank excessively and
frequently during her pregnancy. Biopsychosocial, p.35
Mrs. Montgomery also has a history of head trauma. While her brain was still
forming, Mrs. Montgomery sustained repeated head injuries during her stepfather’s
frequent sexual assaults during her teenaged years. Mrs. Montgomery’s mother and
stepfather subjected her to repeated blows on her head with their bare hands, fists,
and objects during her childhood. Additionally, Mrs. Montgomery’s half-brother
reported that he threw a size D battery at her that struck her “square in the back of
the head. She went down like a crushed rag doll.” Biopsychosocial p. 92. She was
taken to the emergency room for treatment. Id. Later, she suffered multiple motor
vehicle accidents in which she hit her head, including more than one where she was
unrestrained and hit her head on the windshield, on two occasions she suffered
headache and impaired memory. Fucetola Report.
2

As discussed, below, hyperactivation of the amygdala is consistent with both
compensatory activation because of brain loss and consistent with chronic posttraumatic stress disorder. Further, it appears that in addition to the insult in utero,
and the history of head injuries, Mrs. Montgomery’s brain was genetically predisposed
to functional deterioration. in new, novel, and stressful circumstances. Medical,
pediatric, psychiatric, and education records and descriptions by first degree and
extended family members—on both sides of her family—document a lengthy history of
genetic vulnerability to psychiatric and neurologic impairment and functional
degradation secondary to Mrs. Montgomery’s genetic/neurological foundation.
4

3

F-036

Case 2:21-cv-00020-JPH-DLP Document 11-12 Filed 01/09/21 Page 37 of 66 PageID #: 897
30a
that is also pivotal in the workings of memory. Erosion or sheering of brain tissue
occurred, resulting in a loss of brain volume, particularly in midline of her brain
and in the parietal region—which is critical for the processing of sensory
information and accurate perceptions of reality. While imaging reveals the
quantifiable, structural defects, Mrs. Montgomery’s behaviors reflect these brain
losses, including her impulsivity and vulnerability to cognitive deterioration and
psychotic disorganization.
Mrs. Montgomery’s functioning has maintained a baseline in prison despite her
brain condition, in large part to the simplification of the demands of daily life
created by the structure of the prison environment. Without the requirements to
work in the public sector, care for her children, or provide for her necessities, Mrs.
Montgomery has eventually, with significant reinforcement and initial titration of
both environment and medication, been able to achieve minimal daily functioning
—including being able to perform a prison job (doing laundry, floors, emptying
trash cans), and to participate in prison activities (educational and recreation
classes, pod-games, craft activities). However, the ameliorative effect of this
structure has been vitiated by removing her from her pod and placing her on
suicide watch without access to her coping mechanisms (music, hand-crafts, etc.).
Further, the stress inherent in her impending execution, combined with the
added stress of anticipation of her transport to another facility, appears to have
exposed her brain’s vulnerability, causing a recurrence of well-documented
psychosis and impaired decision-making functioning.
•

Complex Post Traumatic Stress Disorder disrupts Mrs. Montgomery’s
integration of consciousness, self-perception, memory, and actions

Mrs. Montgomery was subjected to chronic, repetitive, and extreme sexual
violence, emotional cruelty, and life-threatening physical assault as a child at the
hands of those who should have protected her from harm. 4 She has historically
exhibited the behaviors and symptoms, including psychosis, learned
helplessness, anticipatory anxiety, and dissociation: symptoms of those sufferers
of severe sexual and emotional abuse in childhood who subsequently develop
complex post-traumatic stress disorder. Because Mrs. Montgomery also suffers
from a mood disorder, her symptoms are both part of her bipolar disorder and her
impaired brain function, yet are also trauma based. Ultimately it is unnecessary
to tease apart the etiology of her psychosis: it is the psychosis itself that is at
issue in her competency to be executed.
My interview of Mrs. Montgomery confirmed much of the most traumatic
information regarding direct physical and sexual harm to her that is contained in the
Biopsychosocial evaluation. While I rely on the BPS for historical context and
supporting documentation, my clinical impressions are based on my interview of Mrs.
Montgomery and further supported by the work of Dr. Katherine Porterfield,
psychologist specializing in victims of torture. Porterfield Report.
5
4

F-037

Case 2:21-cv-00020-JPH-DLP Document 11-12 Filed 01/09/21 Page 38 of 66 PageID #: 898
31a
Historically, Mrs. Montgomery has experienced repeated, discreet episodes of
psychotic symptomatology such as visual, tactile, and auditory hallucinations. She
has also experienced sustained, chronic loss of contact with reality that is more
severe than dissociation associated with post-traumatic stress disorder and is more
aligned with the severe impediment associated with Traumatic Psychosis. The
Diagnostic and Statistical Manural-5th Edition(DSM5) supports the psychosis
secondary to extreme trauma. She has extreme perceptual distortions wherein she
is unable to determine if she is experiencing “real” events and situations or if her
experiences are unreal and not occurring. This inability to recognize reality affects
her judgment and insight and has, at times, denied her a rational understanding of
events around her. She is more vulnerable to this impairment in rational
understanding due to her cognitive deficits.
Mrs. Montgomery also experiences well documented symptoms of trauma, including
re-experiencing the trauma, avoidance and emotional numbing, and hyper-arousal.
She has flashbacks and intrusive memories in which traumatic events are
happening all over again, even when she is awake. She re-experiences physical
sensations associated with maltreatment such as choking and being unable to
breathe or cry. She becomes distressed when she is exposed to cues that symbolize
the trauma, such as her fear of men and emotions associated with the trauma like
lack of trust. She consciously and unconsciously avoids any thoughts, conversations,
and activities that arouse recollections of the trauma. She is often socially
withdrawn and detached from events around her. She compulsively relies on hand
crafts such as tatting to ward off intrusive thoughts. She is unable to recall
important aspects of trauma she survived, consistent with her deficits in amygdala
functioning.
The hallmark and core symptom of the extreme trauma Mrs. Montgomery survived
is her loss of contact with reality. Her symptoms are much more consistent with
torture, and the necessary emotional and cognitive protection a loss of contact with
reality provides to those being tortured. She experiences “a disruption in the
integration of consciousness, self-perception, memory, and actions.” Istanbul
Protocol, paragraph 244. Such cognitive dissociation is also defined as: “The
exclusion from consciousness and the inaccessibility of voluntary recall of mental
events, singly, or in clusters, of varying degrees of complexity, such as memories,
sensation, feelings or attitudes.” Spiegel et al, Dissociation: Culture, Mind, Body;
American Psychiatric Press, 1994, page 60.
Medication masked many of Mrs. Montgomery’s more superficial symptoms of
common trauma, but prior to an appropriate medication regimen first initiated at
the Federal Medical Center at Carswell (BOP) after her trial, she was irritable and
experienced outbursts of anger, she was unable to concentrate, she was
hypervigilant, she suffered generalized anxiety, and she demonstrated physiological
signs of distress (shortness of breath, sweating, dry mouth, dizziness, and
gastrointestinal distress). Mrs. Montgomery has improved while taking
antipsychotic medications. She described the effect of this potent medication as
6
F-038

Case 2:21-cv-00020-JPH-DLP Document 11-12 Filed 01/09/21 Page 39 of 66 PageID #: 899
32a
organizing, allowing her to complete tasks and to recall more effectively. She is
better able to maintain a reality base. This pharmacologic response is a good
indication of antipsychotic response, rendering her more constantly in touch with
reality.
Despite Risperdal’s success in controlling Mrs. Montgomery’s psychotic
symptomology while she was in a supportive environment, medication alone cannot
be expected to prevent flashbacks, re-experiencing, dissociation, and psychosis in the
face of new-and ultimate- trauma, that which she feared for so many years, starting
so young. Where Mrs. Montgomery’s close association with the women of her pod
previously provided support and helped her stay grounded in reality, the loss of that
community withdraws the most important additional layer of support, an
environment she could trust to be stable, consistent, and caring. From the BOP
records of her current conditions of confinement, it is apparent that Mrs.
Montgomery is now encountering many of the components of her prior torture, that
is, isolation, loss of bodily autonomy, exposure to constant surveillance, and threat of
impending death. In the face of such existential stress, medication, alone, does not
prevent her from being recapitulated into psychosis.
Given these conditions, Mrs. Montgomery’s lawyers unsurprisingly report a
reemergence of psychotic symptomology since Mrs. Montgomery’s placement on
death watch. Mrs. Montgomery has admitted to auditory hallucinations, specifically
repeatedly hearing her dead mother’s voice. She is having nightmares she cannot
recount because they are too terrifying. She endorses extreme dissociative
symptomology: multiple episodes of lapses of time, feeling outside herself, and the
sensation of existing in a house in her mind like the one to which she went while
being raped as a teenager. She believes she has received messages from God in a dotto-dot drawing that she was provided by the BOP. Finally, Mrs. Montgomery appears
to have lost contact with reality, believing that the BOP psychologist, specifically a
Dr. Opesso, suggested that she should kill herself in order to “fuck with the
government.” Mrs. Montgomery’s claim is not supported by Dr. Opesso’s clinical
notes and certainly is inconsistent with any acceptable clinical practice.
•

Affective Mood Disorder further compromises Mrs. Montgomery’s
rationality

The course of Ms. Montgomery’s behavior and symptomology also meets criteria for
Bipolar I Disorder, Most Recent Episode Depressed, Severe with Psychotic Features.
She has demonstrated mood lability, impulsive judgment, disinhibition, depressive
episodes, persecutory delusions, irritability, agitation, euphoria during manic and
hypo manic episodes, and visual and auditory hallucinations. As stated, above, she
has such a strong propensity for loss of reality, it is her baseline state. Though she
carried the diagnosis of bipolar disorder throughout much of her incarceration, the
BOP determined that this condition “resolved” on August 14, 2014, following the
successful resection of her thyroid. Treatment on mood stabilizers such as LevoThyroxine, Amytriptiline (technically used for cardiac stabilization, yet it is a
7
F-039

Case 2:21-cv-00020-JPH-DLP Document 11-12 Filed 01/09/21 Page 40 of 66 PageID #: 900
33a
Tricylic antidepressant), and Mirtazepine, was much less successful than on the
atypical antipsychotic Risperdal. Mrs. Montgomery’s failed antidepressant trial
support a diagnosis of Bipolar Disorder. Antidepressants are known to initiate the
“manic switch,” an elevation of mood with irritability, impaired judgment, and other
hypomanic and manic symptoms. Her Thyroid disease and treatment, rather than
ameliorating her Bipolar Disorder, as discussed in her 2017 BOP records, actually
supports a diagnosis of Bipolar Disorder. Thyroid dysfunction is common in mood
disorders and L-thyroxine, a thyroid replacement hormone, is used in the
stabilization of mood disorders, especially Bipolar Disorder.
As with the expected effect of her brain impairments and her trauma history, Mrs.
Montgomery’s symptoms of cognitive impairment and mental illness have
resurfaced with the withdrawal of therapeutic supports and in the face of extreme
stress.
Conclusions
Mrs. Montgomery has a long-standing history of serious brain impairments, exposure
to extreme trauma consistent with torture, affective mood disorder, and psychosis.
These disorders have interacted synergistically and have historically accounted for
Mrs. Montgomery’s mood lability; loss of contact with reality, which in its mildest
form is dissociation and in its most extreme form is psychosis; and impaired memory,
judgment, insight, and cognition. Prior to her incarceration, the interplay and
severity of these multiple impairments resulted in her inability to perform basic
activities of daily life, to care for herself or her family, and to act rationally and
logically. She has dysfunction in her neurological systems, including her motor
functioning, significant attentional problems, limbic dysfunction, memory, and visual
dysfunction. These symptoms affect her behavior at all times, disrupting her ability
to function normally.
Within the prison context, Mrs. Montgomery has found some relief from the most
severe symptoms of psychosis. The introduction of the antipsychotic medication,
risperidone, in 2009, accounts for some of—but not all—the improvement in her
functioning. In addition to finding a medication that addresses some of the symptoms
of Mrs. Montgomery’s thought disorder, the absence of sexual threat and the
presence of a supportive community around Mrs. Montgomery in the admin unit,
comprised of a relatively small, set group of women as well as the highly repetitive
and unchallenging tasks with which she occupies her time, also have accounted to
the greatest degree for her ability to remain largely in contact with reality. The effect
of medication and supports on Mrs. Montgomery’s function is best conceived as a net
providing a safer context that has allowed her to function more successfully, but
neither the supportive environment nor the medication has changed her underlying
condition.
It is my understanding that Mrs. Montgomery’s context changed dramatically on
October 16, 2020 with the warden’s reading of her execution warrant. The documents
8
F-040

Case 2:21-cv-00020-JPH-DLP Document 11-12 Filed 01/09/21 Page 41 of 66 PageID #: 901
34a
provided by the BOP specify that since that time she has been confined almost
exclusively (except for showers and, since December 3, 2020, for 5 hours of outdoor
recreation a week) to a suicide cell—cut off from her community as well as from her
normal activities (laundry, handicrafts, regular exercise, access to her Mp3 player,
etc.). The records reflect a high degree of observation—guards recording her
activities on 15-minute interval throughout the day and night, including observation
when she showers and toilets. Her sleep has been disrupted, both by the continuous
lighting of her cell, and by the withholding of her C-pap machine. Initially her sense
of bodily integrity was violated through the withholding of clothing and
undergarments. 5 Mrs. Montgomery’s environmental support protected her fragile
mental state. Medications could not provide the emotional and cognitive
underpinnings to maintain her reality-based functioning. Such actions as the
involuntary removal of her wedding ring only reinforced the trauma she had
suffered, and she is now reexperiencing. Whatever the intended therapeutic or safety
purpose of these interventions, their effect on Mrs. Montgomery was to remove the
supports that have allowed her to maintain a fragile hold on reality.
Since that time, it appears that Mrs. Montgomery psychotic symptomology has begun
to break through. She is experiencing extreme dissociative symptoms as well as
hallucinations. Both dissociation and hallucinations undermine perceptions of
reality, depriving those who suffer such symptoms of rationality.
My answers to the referral questions are as follows:
•

Based on your knowledge of Mrs. Montgomery’s history as well as the
reports of counsel regarding her current symptomology, is Mrs.
Montgomery able to form a rational understanding of the State’s
rationale for her execution as required by Ford v. Wainwright, 477 U.S.
399 (1986)?

In my professional opinion, which I hold to a reasonable degree of psychiatric
certainty, Lisa Montgomery is unable to rationally understand the government’s
rationale for her execution as required by Ford v. Wainwright, 477 U.S. 399 (1986).
Mrs. Montgomery’s grasp of reality has always been tenuous: medication and the
stable, supportive environment of her confinement over the past decade have
allowed her to appear psychologically intact, though her baseline perceptions of
reality are always distorted due to her brain impairments and trauma history. Mrs.
Montgomery’s attorney’s observations—limited though they are—indicate that Mrs.
Montgomery is further disconnected from reality, precluding a “rational
understanding” of “the State’s rationale for [her] execution.” Panetti v. Quaterman,
551 U.S. 930, 958-59 (2007).
•

How would an in-person evaluation of Mrs. Montgomery further

BOP records reflect she was again provided prison-issue clothing on November 23,
2020.
9

5

F-041

Case 2:21-cv-00020-JPH-DLP Document 11-12 Filed 01/09/21 Page 42 of 66 PageID #: 902
35a
inform or refine your opinions?
Mrs. Montgomery’s impairments cause symptoms that, by their very nature, are
highly individual, based on her history, and require both clinical experience with
psychosis and an in-depth understanding of the subject. Some psychosis is florid and
readily recognizable even by lay people—however in the past, Mrs. Montgomery’s
psychosis has been largely marked by negative symptomology rather than more overt
manifestations. Mrs. Montgomery’s problems with perception frequently manifest as
staring, lengthy pauses, and a distant affect. Whether and when her baseline
dissociation crosses the line into a true disconnect with reality almost inevitably
evades detection by phone and requires a person-to-person clinical interview, where
nuanced physical and emotional cues can be recognized, probed, and placed in proper
perspective. Zoom interviews are limited in their ability to pick up all but the most
obvious psychiatric symptoms. They also do not allow a physical examination, which
would be helpful in determining deterioration of executive functioning anatomy. While
the symptoms reported by counsel indicate that Mrs. Montgomery has decompensated
such that she is experiencing positive symptoms of psychosis (hearing voices and
perceiving events not based in reality), an in-person forensic evaluation of Mrs.
Montgomery would allow me to present a more complete picture of the ways in which
her impairments render her incompetent under Ford.
I declare under penalty of perjury that the above is true and correct this
8th day of January, 2021.

George W. Woods, Jr., M.D.

10
F-042

Case 2:21-cv-00020-JPH-DLP Document 13-3 Filed 01/10/21 Page 2 of 27 PageID #: 941
36a

Page 1 of 4

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF INDIANA
TERRE HAUTE DIVISION
LISA MARIE MONTGOMERY,

)
)
Petitioner,
)
)
v.
)
)
WARDEN OF USP TERRE HAUTE, IN., )
et al.,
)
)
Respondents.
)

Case No. 2:21-cv-00020-JPH-DLP

DECLARATION OF CHRISTINA A. PIETZ, Ph.D., A.B.P.P.
1. The statements I make hereinafter are made based only on my review of court
filings, the files and records of the BOP, and/or my own personal knowledge. A
listing of the files and records I have reviewed is attached hereto.
2. A copy of my CV is attached hereto.
3. I worked as a forensic psychologist for the Federal Bureau of Prisons United
States Medical Center for almost twenty-five years. In that capacity, I conducted
over 1,000 court-ordered evaluations and testified as an expert witness in federal,
state, and military court. These evaluations addressed competency related issues,
criminal responsibility, risk assessment, and civil commitment. My job duties also
included providing the main source of mental health services to those patients
assigned to me including inmate screening, housing status, and classification.
4. Following my retirement from the United States Medical Center, I began working
on a contract basis for Burrell Behavioral Health Care. In this capacity, I continue
to conduct evaluations addressing competency related issues, criminal
responsibility and risk assessment. I have evaluated several individuals alleging to
suffer from posttraumatic stress disorder (PTSD). I have also conducted
workshops discussing assessment of PTSD in the forensic context, “Assessing
Allegations of Trauma in a Forensic Context.” I provide mental health treatment to
individuals suffering from PTSD.

Case 2:21-cv-00020-JPH-DLP Document 13-3 Filed 01/10/21 Page 3 of 27 PageID #: 942
Page 2 of 4

37a

5. Throughout my career, I have conducted several workshops on testifying in court,
the assessment of PTSD using the criteria set out in the Diagnostic and Statistical
Manual of Mental Disorders (“DSM-5”), and other forensic topics.
6. I have authored several papers and published a book entitled Violent Offenders:
Understanding and Assessment. As an ad hoc reviewer for the Criminal Justice
and Behavior Journal, I reviewed several articles. I have also reviewed book
proposals for the Oxford Press.
7. I am familiar with professional standards and practices generally accepted in
forensic psychology for evaluating criminal responsibility and competency-related
issues, including competency to be executed.
8. On November 30, 2020, I was contacted by the United States Attorney’s Office
for the Western District of Missouri requesting that I review records concerning
Lisa Montgomery. I accepted the engagement and reviewed numerous records
concerning the case, including legal filings, prior forensic evaluations of Mrs.
Montgomery, medical and psychology records (dated January 2007 through
January 2021) of Mrs. Montgomery from the Bureau of Prisons, Federal Medical
Center Carswell, recent Suicide Watch Log Books, and Visitor Logs, and
recordings of seven phone calls Mrs. Montgomery had with family members in
August through November, 2020, and recordings of five recent phone calls Mrs.
Montgomery had with family members in December 2020 or January 2021.
9. Given the COVID-19 pandemic, numerous forensic psychologists who opine on
mental competency are choosing, and in some instances required by facilities, to
conduct competency evaluations remotely through interactive videoconferencing.
During the COVID-19 pandemic, I have conducted several mental competency
evaluations remotely that I believe comport with professional standards, and my
opinions have been accepted by attorneys and courts.
10. During the COVID-19 pandemic, I have also conducted several mental
competency evaluations on site in state and federal prisons. I am familiar with
numerous other forensic psychologists who opine on mental competency who also
have conducted competency evaluations on site in state or federal prisons, donning
appropriate personal protective equipment.
11. In the majority of my evaluations addressing competency related issues, I have not
previously observed or interacted with the evaluated person prior to conducting
the evaluation. In the competency to be executed evaluations I have conducted, I

Case 2:21-cv-00020-JPH-DLP Document 13-3 Filed 01/10/21 Page 4 of 27 PageID #: 943
Page 3 of 4

38a

was an independent evaluator that had no previous clinical relationship with the
evaluated person and had not previously evaluated the evaluated person. These
evaluations have been accepted by courts.
12. Although I have not conducted a clinical evaluation of Mrs. Montgomery’s mental
state and/or assessed her understanding of her current legal situations, from my
review of records I do not see any evidence that Mrs. Montgomery is presently
suffering from a major mental illness that would impair her ability to comprehend
her legal situation or interact with her attorneys. Moreover, my assessment of Mrs.
Montgomery’s conversation with her family members suggests that Mrs.
Montgomery understands her current legal situation, legal options, that she is
going be executed, and that execution means death.
13. Based on the January 2, 2021, phone call I reviewed, Mrs. Montgomery was able
to provide a rational, accurate description of the status of her postconviction legal
proceedings as of January 2, 2021.
14. Based on records from providers at FMC Carswell familiar with Mrs.
Montgomery’s clinical presentation, they have consistently documented that she
presents no evidence of symptoms of psychosis, i.e., delusions and/or
hallucinations. One of these same clinicians, as of January 7, 2021, described her
current thought processes as logical and organized.
15. Based on records from providers at FMC Carswell familiar with Mrs.
Montgomery’s clinical presentation, Mrs. Montgomery appropriately applies legal
concepts to her current situation, including clemency, appeals, and remaining legal
claims, in detail. Mrs. Montgomery’s records reflect an ability to cite and
appropriately apply legal concepts to her specific situation which displays a level
of comprehension inconsistent with merely reciting legal concepts told to her by
other persons, including her attorneys. For example, in a Clinical Intervention –
Individual Therapy note dated January 7, 2021, a clinician noted Mrs.
Montgomery “indicated she maintains hope her clemency petition or remaining
legal arguments will allow her to avoid being executed.”
16. Although it is appropriate and consistent with the specialty guidelines for forensic
psychology for an evaluator to discuss with attorneys their concerns regarding
their client’s competency, no professional evaluating competency should rely
solely on that information and historical clinical evaluations in making a
determination as to current competency. Likewise, although historical information
is important, competency (or incompetency) is a present-tense issue.

Case 2:21-cv-00020-JPH-DLP Document 13-3 Filed 01/10/21 Page 5 of 27 PageID #: 944
Page 4 of 4
39a

Consequently, when assessing a person' s competency, it is imperative that the
clinician obtain sufficient facts or data related to the person' s current functioning
and current competency-related issues. Based on what has been provided in the
Petition for Writ of Habeas Corpus filed January 8, 2021 and Amended Petition
for Writ of Habeas Corpus filed January 9, 2021 (collectively, the "Petition"), and
attached declarations from Dr. Porterfield and Dr. Woods, any opinions as to
current competency do not appear to have been based on sufficient, current facts
or data to conform to any known professional standards for evaluating
competency.
17. Regarding Dr. Porterfield's statements as relayed in the Petition, while Dr.
Porterfield' s statements are based upon examinations that were conceivably
relevant to mitigating issues at trial, as reflected in her declaration attached to the
Petition and prior declarations, Dr. Porterfield' s opinions do not confonn to or
reliably apply generally accepted psychological principles or methods to answer
any questions regarding Mrs. Montgomery ' s current competency to be executed,
as delineated in Ford v. Wainwright.
18. Similarly, regarding Dr. Woods's statements as relayed in the Petition, Dr.
Woods ' s statements, as reflected in his declaration attached to the Petition and
prior declarations, do not appear to conform to or reliably apply any generally
accepted principles or methods to answer any questions regarding Mrs.
Montgomery ' s current competency to be executed, as delineated in Ford v.
Wainwright. The Petition, including Dr. Woods ' s declaration, does not suggest or
demonstrate Dr. Woods bases his opinion on sufficient facts or data related to Mrs.
Montgomery ' s current functioning and current competency-related issues,
particularly in light of the detailed records from providers at FMC Carswell
familiar with Mrs. Montgomery ' s clinical presentation.
I declare, under penalty of perjury, pursuant to 28 U.S.C. § 1746, that the foregoing is
true and correct.

Executed this

fD

day of January, 2021.

Christina A.
Board Certi

. ., ABPP
orensic Psychology

Case 2:21-cv-00020-JPH-DLP Document 13-3 Filed 01/10/21 Page 6 of 27 PageID #: 945
40a
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF INDIANA
TERRE HAUTE DIVISION
LISA MARIE MONTGOMERY,

)
)
Petitioner,
)
)
v.
)
)
WARDEN OF USP TERRE HAUTE, IN., )
et al.,
)
)
Respondents.
)

Case No. 2:21-cv-00020-JPH-DLP

LIST OF MATERIALS REVIEWED BY CHRISTINA A. PIETZ, PH.D., ABPP IN
CONNECTION WITH THE ABOVE-TITLED MATTER
1. Bureau of Prisons Health Services Records
2. Suicide Watch Chronological Log
3. Declaration of David Kidwell Sr. dated September 3, 2016
4. Transcript of trial March 4 and 7, 1985
5. Female Offender Manual
6. Treatment and Care of Inmates with Mental Illness
7. Program Statement-Suicide Prevention Program
8. Institution Supplement (FMC Carswell)-Suicide Prevention Program
9. Institution Supplement-Operation and Security of the Special Confinement Unit (SCU)
10. Plaintiff’s Motion for Preliminary Injunction
11. Memorandum of Law in Support of Preliminary Injunction
12. Declaration of Katherine Porterfield, Ph.D., dated November 9, 2020
13. Declaration of John Joseph Hedberg Patterson dated January 18, 2013
14. Declaration of Jan Vogelsang, M.S.W. dated March 17, 2013
15. Curriculum Vitae, Jan Vogelsang, M.S.W.
16. Declaration of Martin Horn dated November 10, 2020
17. Declaration of Kelley J. Henry dated November 13, 2020
18. Declaration of Julie Gardner dated November 9, 2020
19. Letter authored by Kelley J Henry dated October 23, 2020, addressed to M Carr, Warden
20. Letter authored by M. Carr, Warden addressed to Kelley J. Henry dated November 6,
2020
21. Letter addressed to Mrs. Kacie Inman dated October 21, 2020, authored by Kellie J.
Henry and Amy D. Harwell
22. Letter addressed to Katherine Siereveld and Mrs. Kacie Inman dated November 1, 2020,
authored by Kelley J. Henry, Amy D. Harwell, and Lisa Nouri
23. Transcript of Proceedings November 7 and 8, 2016
24. Declaration of Robin Nunn dated November 16, 2020

Case 2:21-cv-00020-JPH-DLP Document 13-3 Filed 01/10/21 Page 7 of 27 PageID #: 946
41a
25. Proposed order Granting Preliminary Injunction
26. Forensic report authored by Park Dietz, M.D., M.P.H., Ph.D. dated September 17, 2007
27. Curriculum Vitae, Park Dietz
28. Neuropsychological evaluation authored by Daniel A Martell, Ph.D., dated August 24,
2007
29. Curriculum Vitae, Daniel Martell
30. Summary report completed by Ronald Walker, M.A.
31. Curriculum Vitae, Ronald Walker, M.A.
32. Declaration of Rick Winter dated November 24, 2020
33. Declaration of Michael Carr dated November 20, 2020
34. Declaration of Michael Carr dated December 10, 2020
35. Copy of the complaint
36. Defendant’s Response in Opposition to Motion for Preliminary Injunction
37. Plaintiff’s Reply In Support Of her Motion For Preliminary Injunction
38. Supplemental Declaration of Katherine Porterfield, Ph.D., executed on November 23,
2020
39. Robert Fucetola, Ph.D. report dated July 2006
40. Robert Fucetola, Ph.D. Curriculum Vitae
41. Ruth Kuncel report dated April 9, 2007
42. Ruth Kuncel Curriculum Vitae
43. William Logan, M.D. report, undated
44. William Logan, M.D. Curriculum Vitae
45. William Logan, M.D., declaration dated March 14, 2013
46. Robin C. Gur reports-April 3, August 23, September 28, October 2, and October 22,
2003, October 11, 2016
47. Siddhartha Nadkami, M.D., report dated September 27, 2013
48. Katherine Porterfield, Ph.D., power point, letter dated 10-10-16, report dated April 22,
2016
49. Katherine Porterfield, Ph.D. resume
50. George Woods declaration dated March 17, 2013
51. George Woods Curriculum Vitae
52. George Woods Addendum dated October 23, 2016
53. Telephone calls made by Mrs. Montgomery to family members on August 6, 13, and 17,
September 1, November 2, 10, and 26, December 2, 11, 14, and 17, 2020, and January 2,
2021
54. Petition for Writ of Habeas Corpus Pursuant to 28 U.S.C. § 2241
55. Petition for Writ of Habeas Corpus Pursuant to 28 U.S.C. § 2241 (corrected)
56. Appendix F to Petition for Writ of Habeas Corpus Pursuant to 28 U.S.C. § 2241
(corrected) - Expert Declarations

Case 2:21-cv-00020-JPH-DLP Document 13-4 Filed 01/10/21 Page 2 of 8 PageID #: 968
42a

Case 2:21-cv-00020-JPH-DLP Document 13-4 Filed 01/10/21 Page 3 of 8 PageID #: 969
43a

Case 2:21-cv-00020-JPH-DLP Document 13-4 Filed 01/10/21 Page 4 of 8 PageID #: 970
44a

Case 2:21-cv-00020-JPH-DLP Document 13-4 Filed 01/10/21 Page 5 of 8 PageID #: 971
45a

Case 2:21-cv-00020-JPH-DLP Document 13-4 Filed 01/10/21 Page 6 of 8 PageID #: 972
46a

Case 2:21-cv-00020-JPH-DLP Document 13-4 Filed 01/10/21 Page 7 of 8 PageID #: 973
47a

Case 2:21-cv-00020-JPH-DLP Document 13-4 Filed 01/10/21 Page 8 of 8 PageID #: 974
48a

Case 2:21-cv-00020-JPH-DLP Document 13-6 Filed 01/10/21 Page 1 of 16 PageID #: 982
49a
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF INDIANA
TERRE HAUTE DIVISION
LISA MARIE MONTGOMERY,

)
)
Petitioner,
)
)
v.
)
)
WARDEN OF USP TERRE HAUTE, IN., )
et al.,
)
)
Respondents.
)

Case No. 2:21-cv-00020-JPH-DLP

EXHIBIT F - RULE 1006 SUMMARY
EXCERPTS OF JAIL CALLS
FROM LISA MONTGOMERY
August 6, 2020
Montgomery and her daughter Kayla discuss the Supreme Court’s denial of
Montgomery’s petition for rehearing 1 and the potential consequences of November
2020 general election on the death penalty:
MS. DAVIS: I love you too. All right. Keep your head up. All right?
MS. MONTGOMERY: I am. I am. You tell [your siblings] I’m not giving up yet. Okay?
MS. DAVIS: Okay.
MS. MONTGOMERY: I’ll keep fighting.
MS. DAVIS: Okay.
MS. MONTGOMERY: So, there’s still things we can do, I think. And, you know, there’s
clemency so we’re working on that too.
MS. DAVIS: Yeah.
MS. MONTGOMERY: And if Biden becomes president, he said -- you heard what he
said, he’ll abolish the death penalty, so.
MS. DAVIS: Oh, Biden. Oh.
Tr. 20:19 – 21:6 (Aug. 6, 2020).

1

Montgomery v. United States, 141 S. Ct. 199 (Aug. 3, 2020).

Case 2:21-cv-00020-JPH-DLP Document 13-6 Filed 01/10/21 Page 2 of 16 PageID #: 983
50a
August 13, 2020
Montgomery and her daughter Kayla discuss the $100 special assessment she was
required to pay as part of her criminal judgment, compared to another female inmate who
also received a capital sentence:
MS. MONTGOMERY: You think [your sister will] have a fine to pay and probation?
MS. DAVIS: Yeah. She’ll be on probation. I mean she’s obviously -- she’s going to have
a crap ton of court fees to pay.
MS. MONTGOMERY: Oh, shit, yeah. She’s probably going to be paying on them forever.
MS. DAVIS: Uh-huh.
MS. MONTGOMERY: You know I had to pay court fees.
MS. DAVIS: Do what?
MS. MONTGOMERY: I had to pay court fees.
MS. DAVIS: You had to pay court fees?
MS. MONTGOMERY: Yep.
MS. DAVIS: Oh, with all your money?
MS. MONTGOMERY: Yeah.
MS. DAVIS: All that money you make?
MS. MONTGOMERY: Yeah.
MS. DAVIS: How do you -MS. MONTGOMERY: It’s $100. Listen to this. So, it’s a $100 per charge. I had one
charge.
MS. DAVIS: Oh, yeah. Yeah. Big money.
MS. MONTGOMERY: Yeah. There’s people that have five, six, seven charges.
MS. DAVIS: Oh.
MS. MONTGOMERY: I just had one. One big one. But yeah.
MS. DAVIS: Uh-huh.
MS. MONTGOMERY: And so I paid that back the first year I was here. So, what happens
is if you, and if you get a fine, well, I didn’t get a fine because obviously it was my sentence.
I wasn’t going to get a fine, although Angie 2 did.
MS. DAVIS: Right.
MS. MONTGOMERY: They got her because her family sent her like $400 and $500 a
month.
Tr. 9:24 - 11:6 (Aug. 13, 2020).

2

Angela “Angie” Jane Johnson is another convicted murderer and Carswell inmate who
received a capital sentence, though Angie’s sentence was later reduced to life. See also Johnson v.
United States, 860 F. Supp. 2d 663 (N.D. Iowa 2012) (granting Angela Jane Johnson relief from a
capital sentence under § 2255).
2

Case 2:21-cv-00020-JPH-DLP Document 13-6 Filed 01/10/21 Page 3 of 16 PageID #: 984
51a
Montgomery and her daughter Kayla discuss her criminal proceedings and the legal
arguments her attorneys have made, including the firing of one of her former attorneys, Judy
Clarke, and the Supreme Court’s denial of Montgomery’s petition for certiorari and petition
for rehearing:
MS. MONTGOMERY: Well, I keep hoping my attorneys were good at what they did, but
I’ve lost everything. So, I don’t know.
MS. DAVIS: Yeah. I don’t know. I think they’re good. I just think they’re fighting a hard
battle.
MS. MONTGOMERY: Yeah.
MS. DAVIS: I think if you had had different attorneys to start with it would have gone
differently.
MS. MONTGOMERY: It would been a different outcome. Right. Right. If had gotten Judy
[Clarke] to begin with.
MS. DAVIS: Yes. I liked her.
MS. MONTGOMERY: But, you know, they’re -- yeah. They’re saying that it was okay
that the judge fired her and replaced her with somebody else.
MS. DAVIS: Which is crazy.
MS. MONTGOMERY: Right. Which everybody that hears that says that can’t happen.
And it did.
MS. DAVIS: Yeah.
MS. MONTGOMERY: And then, of course, the Supreme Court is saying that it was okay.
Right.
MS. DAVIS: Uh-huh.
MS. MONTGOMERY: Because that’s what we appealed on.
MS. DAVIS: Yeah.
MS. MONTGOMERY: But yet another court, a lower court in Philadelphia said, no, the
guy had a right to his chosen attorney even on the day of trial, even though it was going to
delay his trial by three hours. The judge had said, no, he couldn’t have his own attorney.
MS. DAVIS: Hum.
MS. MONTGOMERY: So, he won his because he, you know, what he did was he had a
court-appointed attorney. He hired an attorney that came in the day of trial and said I need
a three-hour delay and I’ll be here and I can take over. And the judge said absolutely not.
Well, he won his saying that he had a right to have his own attorney.
MS. DAVIS: Yeah.
MS. MONTGOMERY: So, why didn’t I have a right to my own attorney, the attorney of
my choice? Why didn’t I have a right? Well, it wasn’t cost -MS. DAVIS: Because it was court-appointed.
MS. MONTGOMERY: Because she was court-appointed?
MS. DAVIS: I would assume.
MS. MONTGOMERY: Yeah. How does that work, you know?
MS. DAVIS: Yeah. Well, I would assume because -- you’re okay. Because it’s courtappointed that, you know, the court gets to choose that, unfortunately.
MS. MONTGOMERY: Not necessarily. But, you know, I guess -MS. DAVIS: See, I don’t know enough about it.

3

Case 2:21-cv-00020-JPH-DLP Document 13-6 Filed 01/10/21 Page 4 of 16 PageID #: 985
52a
MS. MONTGOMERY: She wasn’t going to cost the court anything though. She didn’t -she wasn’t being paid by the court. Like court-appointed would mean the court was paying
her. She was doing it for free.
MS. DAVIS: Oh, she’s pro bono?
MS. MONTGOMERY: Yes.
MS. DAVIS: Gotcha.
MS. MONTGOMERY: Yeah. Yeah.
MS. DAVIS: Yeah. That’s crazy.
MS. MONTGOMERY: So, yeah. Now, you see why we’ve been like really fighting this,
but -MS. DAVIS: Uh-huh.
MS. MONTGOMERY: Now, I’m sure they got -- I talked to Amy [Harwell] the other day
and she, you know, they said they’ve got more things that they’re going to try.
MS. DAVIS: Uh-huh.
MS. MONTGOMERY: But she wants to wait for a legal call.
MS. DAVIS: Yeah.
****
MS. DAVIS: Okay. I was going to say I could always message her. No. She kind of told
me a little bit of what they have in mind. But she said they’re not sure what approach
they’re going to take yet. That’s why I can’t really say a whole lot, but.
MS. MONTGOMERY: Right. Right.
MS. DAVIS: So.
MS. MONTGOMERY: Yeah. We can’t talk about it on the phone. But as long as you kind
of know what’s going on, that’s good.
MS. DAVIS: Yes.
MS. MONTGOMERY: And I asked her to call (inaudible).
MS. DAVIS: I do. I talked to her for a good like 30 minutes the other day.
MS. MONTGOMERY: Okay.
MS. DAVIS: Just so I had kind of an idea.
MS. MONTGOMERY: You probably know more than I know.
MS. DAVIS: Sadly. Sadly. I probably do. Kind of.
MS. MONTGOMERY: It’s tough to say though. They know that you’re important to me
and that I want you to be fully aware of what’s going on. You and Kevin [Montgomery].
MS. DAVIS: Yeah.
MS. MONTGOMERY: So. Because I know you’ll communicate with your brother and
your sisters. Now, CJ said he took some -MS. DAVIS: Yes. And I did.
Tr. 14:2 – 18:3 (Aug. 13, 2020).

4

Case 2:21-cv-00020-JPH-DLP Document 13-6 Filed 01/10/21 Page 5 of 16 PageID #: 986
53a
August 27, 2020
Montgomery discusses the probability that she will be executed with her father and
his partner, Jan:
MS. MONTGOMERY: I was sad yesterday. They had another execution in the federal
system.
JAN: Damn. Damn.
MS. MONTGOMERY: And then they’ve got another one tomorrow.
JAN: Oh, damn.
MS. MONTGOMERY: Yeah.
JAN: We’ve got to hurry up and get Biden in. He said right away he’s going to stop that.
MS. MONTGOMERY: Yes.
JAN: I just-MS. MONTGOMERY: They have more scheduled in. Okay. Because I don’t know if Dad
told you that there was 12 ahead of me, now there’s 11 because the one that got killed
yesterday.
JAN: Right.
MS. MONTGOMERY: And so after tomorrow there will be ten ahead of me.
JAN: Well, remember you’re a female.
MS. MONTGOMERY: I know. That’s what everybody tells me.
JAN: (Inaudible) and sick, yeah.
MS. MONTGOMERY: Hopefully he just -- hopefully he doesn’t notice me.
JAN: Yeah. Well, you’re female and I think that’s in your favor. All right. He is not happy
with us at all.
MS. MONTGOMERY: Okay.
JAN: I don’t blame him. He loves you.
MS. MONTGOMERY: I know he does.
JAN: All right, honey. Take care.
MS. MONTGOMERY: I love you too. Bye.
JAN: Bye-bye.
MR. PATTERSON: Okay. What’s up?
MS. MONTGOMERY: Nothing. I was just telling her that they executed a guy yesterday
and they’re doing another one tomorrow.
MR. PATTERSON: Oh, really.
MS. MONTGOMERY: Yeah.
MR. PATTERSON: Oh.
MS. MONTGOMERY: And two more in a couple weeks, so.
MR. PATTERSON: That’s too bad.
MS. MONTGOMERY: That put me -- I don’t know if you know where I’m at. There was
12 ahead of me, now there’s 11, tomorrow there will be 10.
MR. PATTERSON: Okay.
MS. MONTGOMERY: So,
MR. PATTERSON: Well.
MS. MONTGOMERY: Hopefully they don’t two a month. If they do two a month, then
I’m screwed, but hopefully they don’t.
5

Case 2:21-cv-00020-JPH-DLP Document 13-6 Filed 01/10/21 Page 6 of 16 PageID #: 987
54a
MR. PATTERSON: Well, yeah.
MS. MONTGOMERY: It still would -- even then it wouldn’t be till January. But I’m sure
Biden is going to win. Don’t you think he’s going to win? The polls here in Texas. He’s
leading here in Texas.
MR. PATTERSON: I know, but [Hillary Clinton] was too.
MS. MONTGOMERY: I know.
Tr. 5:13–7:17 (Aug. 27, 2020).
September 1, 2020
Montgomery discusses with her father her interest “on a personal level” in a book
about John Wilkes Booth, based on the hanging of Mary Surratt:
MS. MONTGOMERY: So, one of the reasons I called was I got the books today in the
mail.
MR. PATTERSON: Oh, good.
MS. MONTGOMERY: From Daedalus.
MR. PATTERSON: Uh-huh.
MS. MONTGOMERY: The Storm, and John Wilkes Booth and the pictures of Stalin versus
Hitler, and the one on World War I. They all look good.
MR. PATTERSON: Yeah.
MS. MONTGOMERY: We were locked in all afternoon and he brought them to my room,
so I was like, oh, this is cool.
MR. PATTERSON: Good. I’m glad you like them.
MS. MONTGOMERY: Yeah. Yeah.
MR. PATTERSON: So, did you like them? You don’t have to. If you don’t like them,
please tell me.
MS. MONTGOMERY: I do like them. I glanced through the John Wilkes Booth because
I’m interested in that on a personal level because –
MR. PATTERSON: Uh-huh.
MS. MONTGOMERY: -- didn’t they hang Mary Surratt because she had a boarding house
where he was staying at?
MR. PATTERSON: Yeah.
MS. MONTGOMERY: Yes. And she was like the first federal woman –
MR. PATTERSON: Yeah.
MS. MONTGOMERY: -- to be killed, to get the death penalty?
MR. PATTERSON: Yeah.
MS. MONTGOMERY: Yeah.
MR. PATTERSON: Yeah. And they did it, oh, you know, they did it in a square so
everybody could see it.
MS. MONTGOMERY: Right.
MR. PATTERSON: I think they did four of them at the same time and she was one of
them.
MS. MONTGOMERY: Yeah. That’s what I thought. Well, I’ll find out for sure reading it.
It seems like I read something about it a long time ago but I don’t –
6

Case 2:21-cv-00020-JPH-DLP Document 13-6 Filed 01/10/21 Page 7 of 16 PageID #: 988
55a
MR. PATTERSON: Yeah.
MS. MONTGOMERY: I don’t really remember how that worked.
MR. PATTERSON: Yeah. Well, I know they hung – I know they hung her. I know that for
a fact.
MS. MONTGOMERY: Yeah. I knew they hung her. This guy wrote to me and she was –
okay. His ancestor was the preacher who went to give her final rights or whatever before
she died.
MR. PATTERSON: Oh, yeah. Yeah.
MS. MONTGOMERY: And so it had been passed down in their – and also the bed – the
bed that John Wilkes Booth slept on is in his family.
MR. PATTERSON: Yeah.
MS. MONTGOMERY: So.
MR. PATTERSON: Well, he was actually a fairly famous person. That’s why he got in
there originally.
MS. MONTGOMERY: Yeah. Right. And he knew his way around the theater.
Tr. 5:13 – 7:17 (Sept. 1, 2020).
November 2, 2020
Montgomery and her daughter Kayla discuss a biblical passage concerning prisoners
in the shadow of death:
MS. MONTGOMERY: . . . Oh, wait a minute. So listen to this. So, I had a Bible, right?
MS. DAVIS: Yeah.
MS. MONTGOMERY: And I opened it up the other night just to wherever it opened to
and it opened to Psalm 107. So, write this down, 107. And it’s not the very beginning of it
but maybe a couple of little paragraphs into it.
MS. DAVIS: Yeah.
MS. MONTGOMERY: And it starts talking about prisoners in the shadow of death and
how God will free you.
MS. DAVIS: Yeah.
MS. MONTGOMERY: Burst your bonds.
MS. DAVIS: Wow.
MS. MONTGOMERY: Yeah. Isn’t that like -- I was like this is so appropriate.
Tr. 15:22-16:11 (Nov. 2, 2020).
November 10, 2020
Montgomery and her father discuss her attorneys contracting COVID-19:
MS. MONTGOMERY: Have you heard that my attorneys are sick?
MR. PATTERSON: Are they?
MS. MONTGOMERY: Yes.
MR. PATTERSON: I did not.
7

Case 2:21-cv-00020-JPH-DLP Document 13-6 Filed 01/10/21 Page 8 of 16 PageID #: 989
56a
MS. MONTGOMERY: They had to cancel their visit for two weeks.
MR. PATTERSON: Oh, my goodness.
MS. MONTGOMERY: They got sick coming down here.
MR. PATTERSON: Well, did you get to sit with them?
MS. MONTGOMERY: No. It was no contact, but still.
MR. PATTERSON: Okay. So, was it the same way we meet you?
MS. MONTGOMERY: Yeah.
MR. PATTERSON: Oh, you know -MS. MONTGOMERY: It was probably through the airlines or something is probably
where they got it.
MR. PATTERSON: Yeah.
MS. MONTGOMERY: Or a rental car or whatever. So, that’s why we’re not worried about
here right now.
Tr. 4:3-22 (Nov. 10, 2020).
Montgomery and her father discuss her ex-husband’s recent arrest:
MS. MONTGOMERY: Did you hear what happened to their dad? Did you hear what
happened to their dad?
MR. PATTERSON: I heard. Is he out now or is he still in jail?
MS. MONTGOMERY: Oh, no. He’s on a $100,000 bail.
MR. PATTERSON: Well, I know that. I didn’t think he could get it, so.
MS. MONTGOMERY: Yeah. They’re not bailing him out.
MR. PATTERSON: Yeah. She -- Kayla sent me the arrest thing right after he got arrested.
MS. MONTGOMERY: Karma.
Tr. 7:25-8:10 (Nov. 10, 2020).
Montgomery and her father discuss the implausibility of her ex-husband’s criminal
defense and jokes about how she once again has the upper hand over her ex-spouse:
MS. MONTGOMERY: Carl is saying he’s the victim in this. He was enticed.
MR. PATTERSON: Yeah.
MS. MONTGOMERY: A 14-year-old girl. There’s no way.
MR. PATTERSON: Yeah.
MS. MONTGOMERY: And they got all kinds of evidence against him, so he’s going down
for a long time. I think it’s – I think it’s karma. See what he gets for being so nasty to me. 3
Montgomery married Carl Boman, her step-brother, when she turned
eighteen in August 1986. She had her first child in January 1987, and three more in
the three years that followed. In 1990, Montgomery underwent the sterilization
procedure described above. The procedure was successful, and a pretrial
hysterosalpingogram confirmed that the sterilization rendered Montgomery unable
to become pregnant. Montgomery claimed that her mother and Boman forced her
to undergo the sterilization procedure.
8

Case 2:21-cv-00020-JPH-DLP Document 13-6 Filed 01/10/21 Page 9 of 16 PageID #: 990
57a
MR. PATTERSON: Yeah. Yeah. Yeah. Well, I always said that, so.
MS. MONTGOMERY: Yeah.
MR. PATTERSON: You know.
MS. MONTGOMERY: And then CJ goes, well, you’re back on top, Mom. For the next
four weeks I’m back on top.
Tr. 9:17-10:5 (Nov. 10, 2020).
November 26, 2020
Montgomery claims to her daughter Chelsea that did not know what she was doing
when she committed her crime, as compared to her ex-spouse’s recent criminal charge(s):
MS. MONTGOMERY: Think [your father is] going to make you feel guilty too?
CHELSEA: Yeah.
MS. MONTGOMERY: Don’t feel guilty.
CHELSEA: I was like, no. I can’t do that right now. Like I -MS. MONTGOMERY: Don’t feel guilty.
CHELSEA: I don’t feel guilty. He did it himself. Like --

In the years following the sterilization procedure, Montgomery claimed that
she had four more pregnancies. In 1994, while separated from Boman, Montgomery
had an affair and claimed that she was pregnant. Montgomery and Boman later
reconciled, and she ceased making the claim. She and Boman divorced in 1998. In
2000, before she and Kevin were married, she told him that she was pregnant and
intended to have an abortion. Kevin gave her forty dollars, and the pregnancy was
not mentioned again. In 2002, Montgomery told her friends and family that she was
pregnant again. Although she said that she was receiving prenatal care from her
physician, she would not allow Kevin to attend the appointments. Her physician
testified that he had treated Montgomery for ankle pain and a cold, but he did not
provide her any prenatal care, despite Montgomery's claims to the contrary. When
the alleged due date passed, Montgomery told Kevin that the baby had died and
that she had donated its body to science. As described above, Montgomery claimed
in spring 2004 that she was pregnant and that she was due in December.
Throughout the fall of 2004, Montgomery was involved in a custody dispute
with Boman. He knew that Montgomery was unable to become pregnant and that
she was again claiming that she was pregnant. He and his wife sent emails to
Montgomery, telling her that they planned to expose her deception and use it
against her in the custody proceedings. Montgomery said that she would prove
them wrong. On December 10, 2004, days before the kidnapping, Boman filed a
motion for change of custody of the two minor children who lived with
Montgomery.
United States v. Montgomery, 635 F.3d 1074, 1081 (8th Cir. 2011) (emphasis added).
9

Case 2:21-cv-00020-JPH-DLP Document 13-6 Filed 01/10/21 Page 10 of 16 PageID #: 991
58a
MS. MONTGOMERY: Right. I tried never doing that to you guys. Right?
CHELSEA: And he’s done it our whole life, so.
MS. MONTGOMERY: I know he has.
CHELSEA: (Inaudible).
MS. MONTGOMERY: I know. And I don’t know how to fix that.
CHELSEA: I don’t know.
MS. MONTGOMERY: I guess that’s why I was so determined, you know, this -- this was
not your fault and I would never blame you guys or make you feel responsible for it.
CHELSEA: I know. I don’t feel that way with you. I feel different about what you did than
what he did.
MS. MONTGOMERY: Yeah. Well.
CHELSEA: I don’t blame you, but I definitely blame him.
MS. MONTGOMERY: Yeah. I don’t know. I don’t – I didn’t know what I was doing, you
know.
CHELSEA: It’s okay. I love you a lot.
Tr. 6:1-7:2 (Nov. 26, 2020).
December 2, 2020
Montgomery and her daughter Chelsea discuss Montgomery throwing a party for
herself on the date originally designated for her execution, December 8, 2020:
MS. MONTGOMERY: I’m going to have a party on Tuesday, a party for myself.
CHELSEA: A party for what?
MS. MONTGOMERY: Because that was my original date.
****
MS. MONTGOMERY: I was just like, we’ll just celebrate it because it didn’t happen.
Okay?
CHELSEA: Right.
Tr. 15:12-24 (Dec. 2, 2020).
December 11, 2020
Montgomery and her daughter Kayla discuss that the government will pay for her
cremation in Terre Haute:
MS. MONTGOMERY: Okay. So, I’ve talked to Amy [Harwell] and them today and they
said that the prison is wanting me to fill out the things for cremation.
MS. DAVIS: Uh-huh.
MS. MONTGOMERY: I guess they’re going to pay for it.
MS. DAVIS: Oh, okay.
MS. MONTGOMERY: Okay. Just, you know, in case –
10

Case 2:21-cv-00020-JPH-DLP Document 13-6 Filed 01/10/21 Page 11 of 16 PageID #: 992
59a
MS. DAVIS: Yeah.
MS. MONTGOMERY: Yeah. So, I was going to let Kevin know that at least that would be
something he wouldn’t have to worry about.
MS. DAVIS: Yeah.
MS. MONTGOMERY: Or you guys, you know.
MS. DAVIS: Right. That makes sense. But Amy and them would or the prison would?
MS. MONTGOMERY: The prison is going to.
MS. DAVIS: Okay. Okay.
MS. MONTGOMERY: Or the government, whoever. They’re going to pay for it. At the
funeral home in Terre Haute.
MS. DAVIS: Okay.
MS. MONTGOMERY: So. I think they should pay for it. I mean they’re the ones doing it,
they should pay for it.
MS. DAVIS: Uh-huh. You know, well, like hopefully it doesn’t come to that.
MS. MONTGOMERY: Hopefully it doesn’t come to that, you’re right.
MS. DAVIS: And you’ll just, you know, die of old age and then I’ll pay for it then.
MS. MONTGOMERY: I would love – I’d love to die of old age.
MS. DAVIS: Yeah.
Tr. 2:20-3:25 (Dec. 11, 2020).
December 14, 2020
Montgomery and her sister Diane discuss developments in her legal case, providing
consent for additional counsel to represent her, and how her online petition in support of
clemency received more signatures than male, executed prisoners:
MS. MONTGOMERY: Yeah. So, I talked to (inaudible).
MS. MATTINGLY: Uh-huh. And?
MS. MONTGOMERY: And a private law firm in D.C. has taken on my case.
MS. MATTINGLY: Awesome.
MS. MONTGOMERY: With the people from Cornell, I believe is -MS. MATTINGLY: Awesome.
MS. MONTGOMERY: I believe that’s what it was because I had to agree to it today.
MS. MATTINGLY: Yeah.
MS. MONTGOMERY: So, that’s good.
MS. MATTINGLY: Well, that’s awesome. Yeah.
MS. MONTGOMERY: And Kayla told me there was over 125,000 signatures on the
petition.
MS. MATTINGLY: I know. Isn’t that exciting?
MS. MONTGOMERY: I know. I was like I don’t think the guys got that much, did they?
MS. MATTINGLY: I don’t think so.
MS. MONTGOMERY: Yeah.
Tr. 6:9-7:3 (Dec. 14, 2020).

11

Case 2:21-cv-00020-JPH-DLP Document 13-6 Filed 01/10/21 Page 12 of 16 PageID #: 993
60a

Montgomery and her sister Diane recount the anniversary of her crime:
MS. MONTGOMERY: You know, this week is hard for me. I don’t know if they
told you, but it’ll be 16 years this week. And so -MS. MATTINGLY: Yeah, I know. You just know that God has forgiven you.
MS. MONTGOMERY: I know.
Tr. 10:24-11:4 (Dec. 14, 2020).
Montgomery and her sister Diane discuss cremation and her last meal:
MS. MONTGOMERY: Yeah. Because I had to fill out the cremation forms today.
MS. MATTINGLY: Oh, I’m sorry, honey. I know that was hard.
MS. MONTGOMERY: Yeah. Yeah. It was, you know, because then it’s like, okay, now
I’m really having to sign this thing.
MS. MATTINGLY: Yeah. Well -MS. MONTGOMERY: But the chaplain is the one that
brought it over and they’ve been really helpful for me, so.
MS. MATTINGLY: Well, good.
MS. MONTGOMERY: I was glad it was them rather than the warden or somebody like
that.
MS. MATTINGLY: Yeah. Well, that was smart that they done that.
MS. MONTGOMERY: Yeah. Yeah. So, we got that all taken care of. I haven’t decided
my last meal yet because they’re supposed to be giving me a list of restaurants.
Tr. 14:12-15:5 (Dec. 14, 2020).
Montgomery and her sister Diane discuss her calendar counting down until
presidential inauguration day:
MS. MONTGOMERY: That’s right. That’s right. I’m going to just stay here till -- I made
a calendar -MS. MATTINGLY: Uh-huh.
MS. MONTGOMERY: -- so I can keep track of what day it was and what the weekends
were and everything. And so I made my calendar to January 20th.
MS. MATTINGLY: Good for you.
MS. MONTGOMERY: So, that’s how positive I’m being.
MS. MATTINGLY: Yeah.
MS. MONTGOMERY: You know, I’m like I’m not going to stop it at January 12th. That’s
not it. It’s January 20th.
MS. MATTINGLY: Right. There you go. Good for you.
MS. MONTGOMERY: So.
MS. MATTINGLY: And then we get Biden in there and we’re going to get him to reduce
everything. I mean if we can’t get -MS. MONTGOMERY: Yeah. We’re getting him -12

Case 2:21-cv-00020-JPH-DLP Document 13-6 Filed 01/10/21 Page 13 of 16 PageID #: 994
61a
MS. MATTINGLY: Let’s just get another judge to give you a stay until Biden gets in.
That’s all that we need.
MS. MONTGOMERY: Yeah. Yep. Now, we have another law firm working for us.
MS. MATTINGLY: Yes.
MS. MONTGOMERY: And for -MS. MATTINGLY: Oh, good.
MS. MONTGOMERY: I mean they’re doing it for free.
MS. MATTINGLY: I’m so glad to hear that. Wow. That is so amazing.
MS. MONTGOMERY: Yeah, I know.
Tr. 15:18-16:19 (Dec. 14, 2020).
December 17, 2020
Montgomery acknowledges to her father that she “went off the path for a minute”:
MR. PATTERSON: But know that your kids are more important. Okay? And those
grandkids needs to know Grandma –
MS. MONTGOMERY: Right.
MR. PATTERSON: -- because Grandma is a nice person. Okay.
MS. MONTGOMERY: Right.
MR. PATTERSON: Yeah. Well, I believe that, you know. You have -- you are such a good
person now. I mean you always were, you just went off the path for a minute.
MS. MONTGOMERY: Yeah, that’s true.
Tr. 6:21-7:5 (Dec. 17, 2020).
crime:

Montgomery recounts to her father the anniversary of her incarceration and her
MR. PATTERSON: You know. I’m sorry you’re down today. I wish I could bring you up,
but I can’t think of any jokes.
MS. MONTGOMERY: I just -- today makes me 16 years of being locked up.
MR. PATTERSON: Yeah.
MS. MONTGOMERY: So, you know that yesterday was like 4 -MR. PATTERSON: Yeah.
MS. MONTGOMERY: Yeah.
MR. PATTERSON: Yeah. I told you what, you know you hit national news.
MS. MONTGOMERY: Yeah.
MR. PATTERSON: And I jokingly said, oh, that could be my daughter, never believing it
was.
MS. MONTGOMERY: Yeah.

4

Montgomery committed her crime on December 16, 2004. United States v.
Montgomery, 635 F.3d 1074, 1079 (8th Cir. 2011). She was arrested the next day, December 17.
Id. at 1080.
13

Case 2:21-cv-00020-JPH-DLP Document 13-6 Filed 01/10/21 Page 14 of 16 PageID #: 995
62a
Tr. 15:8-22 (Dec. 17, 2020).
January 2, 2021
plan:

Montgomery and her father discuss her current imprisonment in Texas and transfer
MR. PATTERSON: You know, wow. You still in Texas?
MS. MONTGOMERY: No. Am I -- oh, am I still in Texas? Is that what you’re asking?
Yeah.
MR. PATTERSON: Yes. Okay.
MS. MONTGOMERY: Yeah. They haven’t moved me yet.
MR. PATTERSON: Okay.
MS. MONTGOMERY: They probably won’t till next week.

Tr. 3:7-13 (Jan. 2, 2021).
Montgomery and her father discuss the status of her legal appeal to the D.C. Circuit,
the remaining claims in district court, and her plan for execution witnesses:
MS. MONTGOMERY: So, what happened was the government appealed to the circuit
court and the circuit court ruled against the judge, who had originally ordered. However,
we’re going to
appeal to the whole circuit court. That’s next.
MR. PATTERSON: Yeah.
MS. MONTGOMERY: Okay. We’ve got a clemency hearing on Wednesday, so.
MR. PATTERSON: Okay.
MS. MONTGOMERY: Yeah. So, we can -MR. PATTERSON: Well, I’m praying. I’m praying. I know I got -MS. MONTGOMERY: And the judge didn’t rule on everything. The judge that gave us
that ruling, he didn’t rule on everything, so there’s still more -MR. PATTERSON: Yeah.
MS. MONTGOMERY: -- in here. I mean I was told it was going to be a roller coaster of
a week, so just to hang in here.
MR. PATTERSON: Okay. As you long as you know that, hon.
MS. MONTGOMERY: Okay.
MR. PATTERSON: Okay. Okay. I’ve kind of figured that out a long time ago how it’s
going to be.
MS. MONTGOMERY: It’s going to be up and down.
MR. PATTERSON: Yeah. Well, I’d had hoped that things would change way back and - but, yes. I’m -- and I -- I was just -MS. MONTGOMERY: And the court was just able to rule the way they did, but, you
know.
MR. PATTERSON: I just was talking to Tom. And there’s -- I don’t know how -- I would
love to try to be there for you.
MS. MONTGOMERY: Yeah. But you -14

Case 2:21-cv-00020-JPH-DLP Document 13-6 Filed 01/10/21 Page 15 of 16 PageID #: 996
63a
MR. PATTERSON: But I just -MS. MONTGOMERY: But you wouldn’t be allowed in.
MR. PATTERSON: I know. And that pisses me off too.
MS. MONTGOMERY: No. It’s because I did it for everybody. I couldn’t -MR. PATTERSON: Yeah. But -MS. MONTGOMERY: I couldn’t sit and choose -MR. PATTERSON: Okay.
MS. MONTGOMERY: -- one person over another.
MR. PATTERSON: Oh, I know, but you always choose me first.
MS. MONTGOMERY: Then I would have had a very upset husband. I would have had
very upset kids and I was only going to get to choose like three.
MR. PATTERSON: Well, okay.
MS. MONTGOMERY: And there’s five of you guys.
MR. PATTERSON: Me, Kevin and -MS. MONTGOMERY: No.
MR. PATTERSON: Me, Kevin and Kayla.
MS. MONTGOMERY: No. No. That’s not -MR. PATTERSON: Me, Kevin and your sister.
MS. MONTGOMERY: No. How about -MR. PATTERSON: Okay.
MS. MONTGOMERY: I would have had -- yeah. I forgot sister too. So, four kids,
husband, you and Diane. That’s seven people and I could only choose three. I just couldn’t
do that.
MR. PATTERSON: Well, I don’t care about who the other two are.
MS. MONTGOMERY: Well, they did.
MR. PATTERSON: I’m teasing you.
MS. MONTGOMERY: So, just to be fair to everybody it was nobody.
Tr. 8:9-10:21 (Jan. 2, 2021).
Montgomery and her father discuss final calls with her children and her hope that
the President will grant her clemency or a reprieve:
MR. PATTERSON: Yeah. Well, I don’t know. I’m sure you heard it already, but Chelsea
seems to be a little better.
MS. MONTGOMERY: Yes. Yes. And I will talk to her this coming week. I’ve got my
days divided up for everybody.
MR. PATTERSON: Okay. Can I say something, and please don’t take this wrong, okay?
MS. MONTGOMERY: Yeah.
MR. PATTERSON: I love hearing from you but those kids are more important.
MS. MONTGOMERY: They’re all going to get a call, Dad. Don’t worry.
MR. PATTERSON: Okay.
MS. MONTGOMERY: I’m calling CJ tomorrow.
MR. PATTERSON: They are -MS. MONTGOMERY: Desiree on Monday.

15

Case 2:21-cv-00020-JPH-DLP Document 13-6 Filed 01/10/21 Page 16 of 16 PageID #: 997
64a
MR. PATTERSON: They’re all taking -- yeah. Okay. Just please do them before me.
Okay?
MS. MONTGOMERY: Yes. They’re all getting a call.
MR. PATTERSON: They are -- they’re all hurting right now. Okay?
MS. MONTGOMERY: I know.
MR. PATTERSON: Okay. Well, you know, anyhow.
MS. MONTGOMERY: It’s not over yet though, Dad.
MR. PATTERSON: I know. And I’m going to come down there and hug you after this is
changed.
MS. MONTGOMERY: Oh, I need hugs after all this is done.
MR. PATTERSON: Oh, yeah. Well, I told you me and Mike had planned a trip down there.
MS. MONTGOMERY: Hopefully Trump will grant me clemency or a reprieve.
12:22:14:1 (Jan. 2, 2021).

16

Case 2:21-cv-00020-JPH-DLP Document 16-1 Filed 01/11/21 Page 1 of 2 PageID #: 1067
65a

Case 2:21-cv-00020-JPH-DLP Document 16-1 Filed 01/11/21 Page 2 of 2 PageID #: 1068
66a

Case 2:21-cv-00020-JPH-DLP Document 16-4 Filed 01/11/21 Page 1 of 10 PageID #: 1076
67a

Declaration of John M. Shields, Ph.D., ABPP
I, John M. Shields, declare as follows:
1. I am a clinical and forensic psychologist, licensed to practice in California,
Arizona and New York. I am Board Certified in Forensic Psychology
(Diplomate) by the American Board of Professional Psychology [ABPP]. I
obtained my Ph.D. in Clinical Psychology from the California School of
Professional Psychology in 1992. I am certified as a Clinical Trauma
Professional by the International Association of Trauma Professionals and
completed certification in Neuropsychological Assessment by the Extension
Program of the University of California at Berkeley. My training and
experience are in the areas of forensic psychology and neuropsychology.
2. I currently have a clinical practice, specializing in forensic psychology, in
San Francisco, California and in New York, NY. I am also currently a
consulting neuropsychologist and forensic psychologist with Baker Street
Behavioral Health in New Jersey, as well as an Expert Consultant to the
United States Air Force. I am on a number of city and county Court panels
to provide Court appointed expert services in criminal and juvenile cases.
3. In the course of my practice as a forensic psychologist, and formerly a
prison psychologist, I have had occasion to interview and/or evaluate
hundreds of individuals, juvenile and adult, who have trauma histories;
including diagnoses of post-traumatic stress disorder [PTSD] and complexPTSD which is suggestive of the most severe trauma histories. I have
testified previously as an expert witness in state, federal and military court
on trauma.
4. I have previously worked as an evaluator for California Department of State
Hospitals, both in the Mentally Disordered Offender and Sexually Violent
Predator prograMrs. In those roles, I conducted evaluations of incarcerated
individuals; many of whom had histories of severe, complex trauma. I also
worked at the California Medical Facility [CMF], a state prison for inmates
with significant psychiatric and/or medical conditions who require
specialized care during their incarceration. In my role as a psychologist at
CMF I conducted treatment and evaluation of inmates, and provided
trainings for medical and mental health staff in the area of psychological

Page 1 of 10

Case 2:21-cv-00020-JPH-DLP Document 16-4 Filed 01/11/21 Page 2 of 10 PageID #: 1077
68a

evaluation and differential diagnosis. In my private consulting practice, I
have conducted more than 2,000 forensic evaluations, including more than
500 competency evaluations. The competence evaluations included both
adult and juvenile competence to stand trial assessments. I have testified as
an expert witness in state and federal court as an expert witness on more
than 150 occasions, including in the area of competence evaluation.
5. I am familiar with the professional standard of care in conducting an
evaluation of an individual’s competency to be executed under the Supreme
Court cases, Ford v. Wainwright, 477 U.S. 399 (1986), Panetti v
Quarterman, 551 U.S. 930 (2007), and Madison v. Alabama, 139 S.Ct. 718
(2019). I am also familiar with the legal and psychological standards for
assessing competence to be executed, as set out in the professional literature.
In 1986, the U.S. Supreme Court ruled that the Eighth Amendment prohibits
executing insane defendants [Ford v. Wainwright, 477 U.S. 399 (1986)].
Years later, in 2007, the Court clarified that the Eighth Amendment forbids
executing those who cannot rationally understand why they are to be
executed and noted that psychotic disorders may preclude such an
understanding [Panetti v. Quarterman, 551 U.S. 930 (2007)]. Most recently,
in 2019, the Court ruled that a finding of incompetency to be executed is not
associated with any particular diagnosis but rather with a specific
consequence, i.e., the defendant’s inability to rationally understand the
reasons for the imposition of the death sentence [Madison v. Alabama, 139
S. Ct 718 (2019)].
6. In Madison, Alabama’s expert testified that Mr. Madison “was able to
accurately discuss his legal appeals and legal theories with his attorneys,”
and therefore must rationally understand why he was being executed.
Similarly, in the present case of Mrs. Montgomery, the government’s
experts, Drs. Wheat & Pietz, describe in some detail Mrs. Montgomery’s
ability to discuss her pending execution with attorneys and with mental
health professionals. They appear to conclude in a similar manners as the
state expert in Madison. Dr. Pietz states [para. 12 of her declaration],
“ . . . from my review of records I do not see any evidence that Mrs.
Montgomery is presently suffering from a major mental illness that
would impair her ability to comprehend her legal situation or interact
with her attorneys. Moreover, my assessment of Mrs. Montgomery’s
conversation with her family members suggests that Mrs.

Page 2 of 10

Case 2:21-cv-00020-JPH-DLP Document 16-4 Filed 01/11/21 Page 3 of 10 PageID #: 1078
69a

Montgomery understands her current legal situation, legal options,
that she is going be executed, and that execution means death.”
7. Despite these detailed discussions about her awareness of her pending
execution, there is not a scintilla of clinical evidence that she has a rational
understanding of why she is about to be executed. Drs. Wheat and Pietz do
not address whether or not Mrs. Montgomery rationally understands the
reasons for the imposition of the death sentence as required by Madison.
8. Both Drs. Wheat & Pietz are no doubt experienced psychologists. Both
acknowledge that they did not conduct an interview of Mrs. Montgomery,
nor did they evaluate her directly. Nonetheless, Dr. Pietz gives an opinion
about Mrs. Montgomery regarding criteria she believes to be relevant to the
question of Mrs. Montgomery’s competence to be executed:
“ . . . from my review of records I do not see any evidence that Mrs.
Montgomery is presently suffering from a major mental illness that
would impair her ability to comprehend her legal situation or interact
with her attorneys.” [Pietz declaration, pg. 3, para. #12]
9. Noted is that nowhere in Dr. Pietz’ declaration is an acknowledgement of the
limitations on the reliability and validity of opinions rendered when an
interview of the subject is not conducted. The American Psychological
Association “Ethical Principles of Psychologists and Code of Conduct,”
sections, 9.01.b-c, states,
“(b) Except as noted in 9.01c, psychologists provide opinions of the
psychological characteristics of individuals only after they have
conducted an examination of the individuals adequate to support their
statements or conclusions. When, despite reasonable efforts, such an
examination is not practical, psychologists document the efforts they
made and the result of those efforts, clarify the probable impact of
their limited information on the reliability and validity of their
opinions, and appropriately limit the nature and extent of their
conclusions or recommendations.
(See also Standards 2.01, Boundaries of Competence, and 9.06,
Interpreting Assessment Results.)
“(c) When psychologists conduct a record review or provide
consultation or supervision and an individual examination is not

Page 3 of 10

Case 2:21-cv-00020-JPH-DLP Document 16-4 Filed 01/11/21 Page 4 of 10 PageID #: 1079
70a

warranted or necessary for the opinion, psychologists explain this and
the sources of information on which they based their conclusions and
recommendations.”
10. It is my opinion that Sec. 9.01.c above does not apply given that all of the
available literature I am aware of indicates that an evaluation of an
individual for the purpose of establishing their competence to be executed is
both warranted and necessary. Therefore, it is my opinion that Dr. Pietz’
declaration should include a discussion of the probable impact of her limited
information (lack of an in-person interview/evaluation of Mrs. Montgomery)
on the reliability and validity of her opinions.
11. Noted is that the materials available, and which were reviewed by both Drs.
Wheat and Pietz include discussion of Mrs. Montgomery’s history of head
injury, and medical findings indicating brain damage:
“Mrs. Montgomery’s brain is compromised structurally and
functionally. My clinical observations are supported by the reports of
Drs. Gur and Nadkarni, as well as the neuropsychological data
produced by Dr. Fucetola, which I have reviewed. Mrs. Montgomery
demonstrates behaviors and symptoms associated with functional
impairment of the cerebellum. Schmahman et al have documented the
role of the cerebellum in controlling executive skills. Although
initially considered a part of the brain controlling balance, with purely
motor functions, the last 22 years have demonstrated the cerebellum
to be a major cognitive mechanism for the control of nuanced
executive functioning skills, particularly decision making, affective
control, understanding context, and effective deliberation. Mrs.
Montgomery’s cerebellum has been found to be quantitatively and
qualitatively impaired, providing significant vulnerability to
her cognitive capacity.
Imaging of her brain reflects an overall loss of brain volume as well as
a particular loss of tissue around the midline of her brain. 1 See Gur
1

Mrs. Montgomery also has a history of head trauma. While her brain was still
forming, Mrs. Montgomery sustained repeated head injuries during her stepfather’s
frequent sexual assaults during her teenaged years. Mrs. Montgomery’s mother and

Page 4 of 10

Case 2:21-cv-00020-JPH-DLP Document 16-4 Filed 01/11/21 Page 5 of 10 PageID #: 1080
71a

Report. Other structures that appear diminished are the basal
forebrain, particularly the frontal right side of the frontal/parietal lobes
and the superior parietal lobe. PET scans show her brain is
hypermetabolic, particularly in the amygdala. Mrs. Montgomery’s
brain impairment is a condition that cannot improve. Though
additional trauma, injury, or aging may further compromise its
functioning, the brain does not “repair” or heal from such losses. The
portions of Mrs. Montgomery’s brain that are impaired are early brain
structures, which are fully developed early in a child’s life. This is
particularly seen in the hypermetabolic functioning of her amygdala—
the center of the body’s fear and stress responses that is also pivotal in
the workings of memory. Erosion or sheering of brain tissue
occurred, resulting in a loss of brain volume, particularly in midline of
her brain and in the parietal region—which is critical for the
processing of sensory information and accurate perceptions of reality.
While imaging reveals the quantifiable, structural defects, Mrs.
Montgomery’s behaviors reflect these brain losses, including her
impulsivity and vulnerability to cognitive deterioration and psychotic
disorganization.
Mrs. Montgomery’s functioning has maintained a baseline in prison
despite her brain condition, in large part to the simplification of the
demands of daily life created by the structure of the prison
environment. Without the requirements to work in the public sector,
care for her children, or provide for her necessities, Mrs. Montgomery
has eventually, with significant reinforcement and initial titration of
both environment and medication, been able to achieve minimal daily
functioning —including being able to perform a prison job (doing
laundry, floors, emptying trash cans), and to participate in prison
activities (educational and recreation classes, pod-games, craft
stepfather subjected her to repeated blows on her head with their bare hands, fists,
and objects during her childhood. Additionally, Mrs. Montgomery’s half-brother
reported that he threw a size D battery at her that struck her “square in the back of
the head. She went down like a crushed rag doll.” Biopsychosocial p. 92. She was
taken to the emergency room for treatment. Id. Later, she suffered multiple motor
vehicle accidents in which she hit her head, including more than one where she was
unrestrained and hit her head on the windshield, on two occasions she suffered
headache and impaired memory. Fucetola Report.

Page 5 of 10

Case 2:21-cv-00020-JPH-DLP Document 16-4 Filed 01/11/21 Page 6 of 10 PageID #: 1081
72a

activities). However, the ameliorative effect of this structure has been
vitiated by removing her from her pod and placing her on suicide
watch without access to her coping mechanisms (music, hand-crafts,
etc.). Further, the stress inherent in her impending execution,
combined with the added stress of anticipation of her transport to
another facility, appears to have exposed her brain’s vulnerability,
causing a recurrence of well-documented psychosis and impaired
decision-making functioning.” [Declaration of George Woods, MD,
pgs. 3-5]
12. Noted is that the Supreme Court of the United States has addressed the
issue of brain development and how the immature or “undeveloped” brain
warrants special consideration. As Fabian (2010) summarized in part,
“The U.S. Supreme Court held in Roper v. Simmons that the Eighth
and Fourteenth Amendments prohibited the punishment of death for
Simmons or any juvenile younger than 18 (at the time of the crime).
The basis for this finding rests upon neuroscience research which has
indicated that the adolescent brain does not mature until early
adulthood (American Bar Association, 2004a; Aronson, 2007; Giedd
et al., 1999; Gotgay et al., 2004; Gur, 2005; Kwong et al., 1992;
Lewis, Yeager, Blake, Bard, & Strenziok, 2004). Structural brain
anatomical studies have revealed that various sections of the brain
become fully myelinated and pruned at different times, with those
brain regions responsible for basic life process and sensory perception
maturing earliest (Kambam & Thompson, 2009; Yakovlev & Lecours,
1967).
“The frontal lobes of the brain, and especially the prefrontal cortex,
are considered to play a critical role in the “higher order” functions of
the brain, that is, abstraction and reasoning; understanding others’
reactions; planning; organizing; controlling impulses; emotional
regulation; understanding, processing, and communicating
information; establishing, changing, and maintaining a mental set;
handling sequential behavior; using knowledge to regulate behavior;
and exhibiting empathy regarding how behavior affects others. In
juveniles, the prefrontal cortex is not completely developed during
adolescence (Golden, Jackson, Peterson-Rohne, & Gontkovsky, 1996)

Page 6 of 10

Case 2:21-cv-00020-JPH-DLP Document 16-4 Filed 01/11/21 Page 7 of 10 PageID #: 1082
73a

and is the last region of the brain to mature (American Bar
Association, 2004b). Subsequently, in adolescents, it is hypothesized
that they process emotional information through the amygdala, or as
“lower order” responses (emotional center of the brain). The
amygdala neural system is impulsive and based on immediate
emotional responses and the prospects of an option (Fabian, 2009a).”
13. If in Roper v. Simmons, the United States Supreme Court decided that
special considerations are warranted regarding execution in the case of an
immature or inadequately developed brain [as seen in juveniles], it stands to
reason that a similar consideration is warranted in the case of a damaged
brain as has been described in the case of Mrs. Montgomery. Even if this is
not a legal assertion, such consideration is warranted by any forensic
neuropsychologist who reviews Mrs. Montgomery’s case. Such an analysis,
or even mention of the need for such analysis is missing from both the
declarations of Drs. Wheat and Pietz. If this aspect of Mrs. Montgomery’s
hsiotry wee noted, perhaps the government’s consultants would take a more
cautious approach to the methodology for evaluating her for execution.
14. The standard of care for this type of forensic evaluation [competence to be
executed] requires face to face, in person contact, in order to observe the
symptoms and manifestations in behavior of any psychotic illness or effects
of a history of serious trauma. It is essential to observe nonverbal behaviors
as well as engage a person verbally. Facial movements, such as a quivering
lip and subtle eye movements, whether the individual is able to pay attention
or is distracted by voices or dissociating as opposed to being distracted by
something actually happening in the room. Essentially, a mental health
professional doing a forensic evaluation by videoconferencing faces a
serious risk of missing important, non-verbal symptoms that weigh on the
determination of an individual’s competency to be executed.
15. The research on telepsychology clearly points to the significant limitations
of trying to conduct evaluations not in person and face to face: difficulty
establishing and maintaining rapport, lack of privacy, lack of safety for the
inmate, technological limitations, decreased ability to detect symptoms, and
lower quality of care (See, Cowan et al, Barriers to Use of Telepsychiatry:
Clinicians as Gatekeepers, Mayo Clinic Proceedings, December 2019;
94(12):2510-2523).
Page 7 of 10

Case 2:21-cv-00020-JPH-DLP Document 16-4 Filed 01/11/21 Page 8 of 10 PageID #: 1083
74a

16. Since the beginning of the Covid-19 pandemic, professional papers have
documented the limits of remote evaluations, even in non-high stakes
settings. These limitation include: loss of rapport and clinical intimacy; less
information was obtained during the interviews, including mannerisms,
facial expressions, physical condition, odors, physical movements; increased
difficulties for patients with auditory or visual impairments; efficacy was
negatively effected, both by the limits with technology and in how mental
health providers describe confidence about their own assessments under
these conditions; less privacy was available and it was more difficult to
make use of silences as a clinical tool; inability to conduct a full
examination, including a physical exam and medical condition and
medication monitoring; and the duration of the "visits" was more limited and
not as in-depth (Uscher-Pines et al, Suddenly becoming a "Virtual Doctor":
Experiences of psychiatrists transitioning to telemedicine during the
COVID-19 pandemic, Psychiatric Services 2020, 71(11):1143-50; Chen et
al, COVID-19 and telepsychiatry: Early outpatient experiences and
implications for the future, General Hospital Psychiatry 2020, 66:89-95).
17. The published professional literature has addressed the evaluation of a
defendant’s competence to be executed (Park BP, Cipriano T: Competency
to be executed and the dynamic nature of mental status in psychotic illness. J
Am Acad Psychiatry Law 47:113–5, 2019. Chamblee LE: Time for a
legislative change: Florida’s stagnant standard governing competency for
execution. Fla St U L Rev 31:335–76, 2004. Ebert B: Competency to be
executed: a proposed instrument to evaluate an inmate’s level of competency
in light of the eighth amendment prohibition against the execution of the
presently insane. Law & Psychol Rev 25:29–57, 2001.).
In one such very recent discussion [Updegrove, A. H. & Vaughn, M. S.
(2020). Evaluating Competency for Execution after Madison v. Alabama, J
Am Acad Psychiatry Law 48(4) online, 2020.
DOI:10.29158/JAAPL.200003-20.], the issue of in-person evaluation is
addressed:
“Evaluators should meet with the defendant in person [emphasis
added] for an appropriate length of time when conducting a
competency evaluation. What constitutes an appropriate period of
time will necessarily vary based on the evaluee’s mental state. In

Page 8 of 10

Case 2:21-cv-00020-JPH-DLP Document 16-4 Filed 01/11/21 Page 9 of 10 PageID #: 1084
75a

situations where the evaluee is too impaired to meaningfully
participate in the interview process, interviews may be brief. Other
interviews, however, could last several hours. Because the required
threshold for establishing competence for execution is relatively low,
a single meeting may be sufficient to evaluate defendants who are
cognitively intact and not actively displaying symptoms of mental
illness. In other, more complex situations involving defendants
exhibiting cognitive decline and active symptoms of mental illness, it
may be necessary to meet with the defendant on multiple occasions.
The evaluations themselves should take place in “a private,
distraction-free area,” which may require temporarily moving the
defendant off of death row, where noise pollution is prevalent.”
18. As stated above, I have conducted hundreds of evaluations related to
competence. I know many forensic psychologists at all levels of practice:
beginning to Board Certified. I know of no psychologist at any level who
would choose to conduct a competence evaluation by telemedicine or over a
telephone, if given the choice of how to conduct the evaluation: in person,
or by webcam/telemedicine. The reason for such is that psychologists are
aware that much is lost when an in-person interview is not conducted. This
is so much the case that even the American Psychological Association
[APA] included a section in its Ethics Code that addresses the importance of
an interview of an evaluation subject. Although the APA does not address
in-person vs. telemedicine methods, it does acknowledge that something is
lost when an interview of some kind is not conducted. While there is some
literature that purports that telemedicine evaluations are “just as good” as in
person evaluations, many experienced clinicians know better, and would not
choose a telemedicine interview over an in-person interview if given a
choice.
19. Due to the current COVID-19 pandemic, I have been forced to conduct
telemedicine interviews for the purpose of evaluating competence. It is my
personal experience that much information is lost when using such a
method. In incarcerated settings there is often noise in and around the
interview rooms used for telemedicine interviews. When a subject appears
to be distracted, it is difficult to tell what they are responding to; something
they actual hear, or to some internal stimuli that may be the product of
psychosis. Second, often the position of the camera or microphone in

Page 9 of 10

Case 2:21-cv-00020-JPH-DLP Document 16-4 Filed 01/11/21 Page 10 of 10 PageID #: 1085
76a

telemedicine evaluations are not situated for optimal transmission of
information. Telemedicine evaluations, in my experience, are not like
watching the nightly news where the person on the screen is centered
directly in front of you, is looking straight ahead, and has his/her voice
amplified optimally. Telemedicine evaluations are of significantly less
quality. Third, in my experience it is often impossible to discern subtle
symptoms of responses to internal stimuli. Subjects who are actively
psychotic and/or dissociating may look away from the camera, or move to
being out of view of the camera, either of which obviously limits clinical
information in a telemedicine interview. Such information which could be
noted during an in-person interview may be indicative of acute
psychopathology, which would be of central importance to one evaluating
competency of any kind. Certainly in a case where life or death is at issue,
the most prudent and professional course of practice would be to conduct a
competence evaluation under the most optimal of circumstances: in-person.
A telephonic, telemedicine or “webcam” interview is certainly not that.
20. In my professional opinion, a forensic evaluation of competence to be
executed should not be conducted remotely, but rather face to face.

I declare under the penalty of perjury and the laws of the United States that the
foregoing is true and correct to the best of my information and belief.

Dated this 11th day of January, 2021.

John M. Shield, Ph.D., ABPP

Page 10 of 10

Case 2:21-cv-00020-JPH-DLP Document 22 Filed 01/12/21 Page 1 of 2 PageID #: 1174
77a
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF INDIANA
TERRE HAUTE DIVISION
LISA MARIE MONTGOMERY,
Petitioner,
v.
WARDEN OF USP TERRE HAUTE, IN, et
al.
Respondents.

)
)
)
)
)
)
)
)
)
)

No. 2:21-cv-00020-JPH-DLP

ORDER STAYING THE EXECUTION OF LISA MARIE MONTGOMERY
Counsel have demonstrated that a stay of Lisa Marie Montgomery's
execution is warranted. It is therefore ordered that respondents Warden of the
USP Terre Haute, IN, Michael Carvajal, and Jeffrey Rosen are enjoined from
executing Lisa Marie Montgomery until further order of this Court.
SO ORDERED.
Date: 1/12/2021

Case 2:21-cv-00020-JPH-DLP Document 22 Filed 01/12/21 Page 2 of 2 PageID #: 1175
78a
Distribution:
Brian Patrick Casey
U.S. ATTORNEY'S OFFICE
brian.casey@usdoj.gov
Amy D. Harwell
FEDERAL PUBLIC DEFENDER TNM
amy_harwell@fd.org
Kelley J. Henry
FEDERAL PUBLIC DEFENDER TNM
kelley_henry@fd.org
Lisa Nouri
lisanouri_atty@hotmail.com

Case 2:21-cv-00020-JPH-DLP Document 24 Filed 01/12/21 Page 1 of 2 PageID #: 1177
79a
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF INDIANA
TERRE HAUTE DIVISION
LISA MARIE MONTGOMERY,
Petitioner,
v.
WARDEN OF USP TERRE HAUTE, IN, et
al.
Respondents.

)
)
)
)
)
)
)
)
)
)

No. 2:21-cv-00020-JPH-DLP

ORDER DENYING EMERGENCY MOTION FOR STAY
On January 11, 2021, the Court granted a motion to stay and entered an
order staying Lisa Marie Montgomery's execution. Dkts. 17, 22. The government
promptly filed a notice of appeal and an emergency motion to stay pending
appeal. Dkt. 19. As the government acknowledges, the Court has considered and
rejected the arguments presented in their motion to stay. Id. at 1. For the reasons
discussed in the Court's order granting a stay of execution, the government's
emergency motion for stay pending appeal, dkt. [19], is DENIED.
SO ORDERED.

Date: 1/12/2021

Case 2:21-cv-00020-JPH-DLP Document 24 Filed 01/12/21 Page 2 of 2 PageID #: 1178
80a
Distribution:
Brian Patrick Casey
U.S. ATTORNEY'S OFFICE
brian.casey@usdoj.gov
Amy D. Harwell
FEDERAL PUBLIC DEFENDER TNM
amy_harwell@fd.org
Kelley J. Henry
FEDERAL PUBLIC DEFENDER TNM
kelley_henry@fd.org
Lisa Nouri
lisanouri_atty@hotmail.com

Case: 21-1052

Document: 8 81a

Filed: 01/12/2021

Pages: 3

United States Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
January 12, 2021
Before
DIANE S. SYKES, Chief Judge
FRANK H. EASTERBROOK, Circuit Judge
THOMAS L. KIRSCH II, Circuit Judge

No. 21-1052
LISA MARIE MONTGOMERY,
Petitioner-Appellee,
v.
T. J. WATSON, Warden, et al.,
Respondents-Appellants.

Appeal from the
United States District Court for the
Southern District of Indiana,
Terre Haute Division.
No. 2:21-cv-00020-JPH-DLP
James P. Hanlon,
Judge.

ORDER
In December 2004 Lisa Marie Montgomery murdered Bobbie Jo Stinnett, who
was then eight months pregnant, and cut the baby out of her womb, claiming the child
as her own. In 2007 a federal jury in the Western District of Missouri convicted her of
kidnapping resulting in death and recommended a sentence of death. The district court
imposed the capital sentence. The Eighth Circuit affirmed on direct appeal, United States
v. Montgomery, 635 F.3d 1074 (8th Cir. 2011), and her petition for postconviction relief
under 28 U.S.C. § 2255 failed.

Case: 21-1052

No. 21-1052

Document: 8 82a

Filed: 01/12/2021

Pages: 3

Page 2

On October 16, 2020, the Department of Justice announced an execution date of
December 8, 2020. Montgomery responded with several actions in the District of
Columbia and elsewhere seeking to delay the execution. As a result of that litigation, on
November 23, 2020, the execution was rescheduled to today at 5 p.m.
On Friday evening, January 8, Montgomery filed a habeas petition pursuant to
28 U.S.C. § 2241 in the Southern District of Indiana, where she is confined. She sought to
raise a claim under Ford v. Wainwright, 477 U.S. 399 (1986), that because of mental
illness, she lacks a rational understanding of the government’s reason for executing her.
For support the petition relied on declarations from three proposed experts, but none
has had any recent contact or communication with Montgomery. Two of the proposed
experts last examined her in 2016, and the third last saw her in 2010. She moved for a
stay of execution.
Last night the district court issued a stay of execution. The government appealed
and filed an emergency motion to vacate the stay. This morning we ordered a response,
and Montgomery has now complied.
We vacate the stay. As the Supreme Court has repeatedly emphasized, “[l]astminute stays [of execution] should be the extreme exception, not the norm.” Bucklew v.
Precythe, 139 S. Ct. 1112, 1134 (2019). That principle is particularly strong where, as here,
the petitioner’s claim could have been brought earlier. Id. Montgomery and her defense
team were given notice of today’s execution date many weeks ago and yet waited until
after the close of business on Friday to file a § 2241 petition and a stay motion—fewer
than four days before the scheduled execution. The delay appears strategic, but at the
very least, it “implicate[s] the ‘strong equitable presumption’ that no stay should be
granted ‘where a claim could have been brought at such a time as to allow
consideration of the merits without requiring entry of a stay.’” Id. n.5 (quoting Hill v.
McDonough, 547 U.S. 573, 584 (2006)). Nothing in Montgomery’s stay request or § 2241
petition overcomes this “strong presumption.”
In addition, the proponent of a stay must make a “strong showing” of a
likelihood of success on the merits of the underlying claim. Nken v. Holder, 556 U.S. 418,
434 (2009). Montgomery has not done so. As noted, the expert declarations she tendered
with her § 2241 petition rest on extremely outdated evaluations, two conducted more
than four years ago and another as long as ten years ago. These stale observations
cannot support a claim about her current mental state. The submission does not satisfy
Nken.

Case: 21-1052

No. 21-1052

Document: 8 83a

Filed: 01/12/2021

Pages: 3

Page 3

Because Montgomery has not overcome the strong presumption against lastminute stays, Bucklew, 139 S. Ct. at 1134, and has not made a strong showing of a
likelihood of success on her proposed Ford claim, Nken, 556 U.S. at 434, we vacate the
district court’s stay of execution.
MOTION GRANTED; STAY VACATED

